<html>
<title> - NATIONAL FLOOD PLAIN REMAPPING: THE PRACTICAL IMPACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
          NATIONAL FLOOD PLAIN REMAPPING: THE PRACTICAL IMPACT

=======================================================================

                               (110-108)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                     U.S. GOVERNMENT PRINTING OFFICE
41-772 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Boozman, Hon. John, a Representative in Congress from the State 
  of Arkansas....................................................     5
Ehlers, Hon. Vernon J., a Representative in Congress from the 
  State of Michigan..............................................     5
Hall, Hon. John J., a Representative in Congress from the State 
  of New York....................................................     5
Larson, Larry A., Executive Director, National Association of 
  State Flood Plain Managers.....................................    37
Matsui, Hon. Doris O., a Representative in Congress from the 
  State of California............................................     5
Maurstad, David, Assistant Administrator, Mitigation Directorate, 
  Federal Emergency Management Agency............................    17
Miller, Hon. Candice S., a Representative in Congress from the 
  State of Michigan..............................................     5
Sterman, Les, Executive Director, East-West Gateway Coordinating 
  Council, St. Louis, Missouri...................................    37
Stockton, Steven, Deputy Director of Civil Works, United States 
  Army Corps of Engineers........................................    17

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    45
Hall, Hon. John J., of New York..................................    46
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    48
Oberstar, Hon. James L., of Minnesota............................    51

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Larson, Larry A..................................................    55
Maurstad, David I................................................    63
Sterman, Les.....................................................    68
Stockton, Steven L...............................................    71

                       SUBMISSIONS FOR THE RECORD

Maurstad, David, Assistant Administrator, Mitigation Directorate, 
  Federal Emergency Management Agency, responses to questions 
  from Rep. Arcuri...............................................    25

                        ADDITIONS TO THE RECORD

County of Merced, California, Paul Fillebrown, Director of Public 
  Works, written statement.......................................    80

[GRAPHIC] [TIFF OMITTED] T1772.001

[GRAPHIC] [TIFF OMITTED] T1772.002

[GRAPHIC] [TIFF OMITTED] T1772.003

[GRAPHIC] [TIFF OMITTED] T1772.004



    HEARING ON NATIONAL FLOOD PLAIN REMAPPING: THE PRACTICAL IMPACT

                              ----------                              


                        Wednesday, April 2, 2008

                   House of Representatives
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings, and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. Good morning. The Subcommittee welcomes all of 
our witnesses this morning. We extend special greetings to our 
colleagues from the Transportation and Infrastructure Committee 
who will testify. They have been deputized, as it were, by 
their local communities to bring us straight-from-the-field the 
information the Subcommittee needs to evaluate just how the new 
Federal flood mapping will work on the ground.
    The need to engage in hazard prevention cannot be doubted; 
floods are the most common hazards in the United States. Right 
now Midwest communities are being ravaged by floods. Flood 
effects can be local, affecting a neighborhood or community, or 
they can ravage entire river basins and multiple States. The 
flooding produced by Hurricane Katrina alerted the Nation to 
the possibility of unanticipated devastation, even in areas 
accustomed to severe flooding.
    Flood hazards exist in all 50 States and here in the 
District of Columbia. They are especially common in low-lying 
areas, near water or down stream from a dam. It is not uncommon 
to see small streams or low-lying ground that appear harmless 
in dry weather become flooded after a heavy rain or significant 
snow fall. Nevertheless, many raise the legitimate question 
whether wholesale national remapping based on essentially a one 
percent chance of severe flooding is worth the time and 
expense. This is one of the questions we will raise in this 
hearing this morning.
    However, the remapping function certainly did not originate 
with Hurricane Katrina. The National Flood Insurance Program, 
or the NFIP, began in 1968, with the National Flood Insurance 
Act to control devastation incurred from floods nationally. 
Although the program started in HUD, the Federal Insurance 
Administration moved to FEMA when it was created in 1979. The 
program is now part of the Mitigation Division at FEMA. FEMA is 
the natural and appropriate home for this program because 
floods are the greatest natural hazard faced annually by 
communities.
    The NFIP works hand-in-glove with FEMA'S efforts in 
disaster preparedness, recovery response, and mitigation. The 
program offers incentives to help communities identify and 
reduce flooding hazards, and to take steps to mitigate the 
damage to property and the risk of loss of life. When a 
community agrees to adopt and enforce floodplain management 
ordinances, particularly for new construction, the Federal 
Government makes flood insurance available to homeowners and to 
business owners.
    FEMA estimates that floodplain management measures prevent 
$1.4 billion in property losses annually, and today 98 percent 
of the Country, including up to 20,000 communities, is covered 
by the flood insurance program. The program provides about 5.5 
million policies with over a $1 trillion dollars in coverage. 
Approximately 90 companies sell flood insurance policies on 
behalf of FEMA. The point of all of this is to reduce the need 
for Federal disaster assistance under the Stafford Act.
    The Subcommittee is well aware that flood hazards change 
with time because of physical changes in topography caused by 
wildfire, erosion, and infrastructure construction and the 
like. We also are painfully aware that floods can cause levees 
to fail. Hurricane Katrina all but bequeathed the current flood 
mapping effort to the Nation. We do not doubt that the FEMA 
remapping is timely or that the Corps of Engineers effort is 
essential. However, necessity is not always the mother of 
invention. Communities must be convinced of both the risks and 
the benefits.
    Time for communities to do the necessary work must be 
realistically assessed and granted. The question concerning 
expense and whether the remapping requirements constitute an 
unfunded mandate must be answered. The actual effect on 
Federal-backed mortgages and on eligibility for Federal 
disaster assistance must be described. Requiring the costs 
mandated by flood remapping in the midst of the most serious 
downturn in the economy in years must be justified. Not only 
explaining the remapping process itself, but answering 
questions such as these are what hearings are for.
    The Subcommittee has much to learn from the Members whose 
districts are affected by the new remapping effort who will 
testify today; from FEMA and the Army Corps of Engineers 
officials who will explain the how and why of the process; from 
experts; and from witnesses who can express the views of local 
communities and business. The Subcommittee greatly appreciates 
the testimony of all of the witnesses who will testify this 
morning.
    Thank you, and I am pleased to ask the Ranking Member, Mr. 
Graves, if he has any opening remarks this morning.
    Mr. Graves. Thank you, Madam Chair. Let me also thank our 
witnesses for being here today. I look forward to hearing the 
testimony on obviously the modernization of FEMA'S flood hazard 
mapping program. In particular, I want to thank the 
distinguished colleagues on our first panel for taking the time 
out of their busy schedules, obviously, to be here today. You 
are providing testimony on the practical impact of FEMA'S flood 
hazard mapping program, what it has on your congressional 
districts, and I think this is an important issue to our 
constituents and, for that matter, to all property owners.
    I have personally seen the impact of flooding and the 
impact it has on lives and property due to the recent floods in 
Missouri and other parts of the Midwest. Over 70 counties in 
Southern and Central Missouri were affected by the flooding 
that occurred just at the end of March. This is only the most 
recent flood event to impact the State. Over the past three 
months, flooding has taken a great toll on the State of 
Missouri, resulting in three Federal disaster declarations.
    Floods are one of the most common hazards in the United 
States, and currently the United States averages about $2.4 
billion in annual flood losses. Recognizing the impact floods 
have taken on lives and property, Congress created the National 
Flood Insurance Program in 1968. The program was intended to 
make insurance available to cover flood damages and promote 
sound land use by minimizing exposure to flood losses and to 
get people out of harm's way. To carry out this program, the 
Federal Government worked with local governments to identify 
and map flood hazards. Today, 20,000 communities participate in 
the program and 100,000 hazard flood map panels have been 
created.
    Since fiscal year 2003, FEMA has undertaken an effort to 
modernize these 40-year-old flood maps because of physical 
changes to topography such as erosion or new development, 
updated data such as rainfall records, and better technology. 
The accuracy of flood maps is of the utmost importance to the 
communities affected. Accurate maps are needed to strike a 
balance between protecting communities from the devastation 
caused by flooding and ensure that community growth and 
development is not overly constrained. Without accurate flood 
maps, some homeowners may be paying too much for flood 
insurance, while others may not purchase flood insurance at all 
because an inaccurate map shows that their property is 
obviously outside of the floodplain.
    Because of the great impact on communities covered by the 
maps, FEMA must be responsible to community concerns. 
Additionally, FEMA must provide a quick and effective way to 
appeal mapping determinations in order to strike balance and 
ensure accuracy. I know FEMA is trying to get it right. This is 
too important not to be able to get it right.
    Again, I want to thank all of our witnesses for being here 
today. Your testimony is going to help us better understand the 
practical impact of FEMA'S map modernization program and 
determine whether FEMA has attained the proper balance in 
implementing the program.
    Thanks, Madam Chair.
    Ms. Norton. I ask unanimous consent that Mr. Costello and 
Mr. Higgins be allowed to sit with the Subcommittee. Without 
objection, so ordered.
    May I ask if any of the Members have statements of their 
own? Mr. Costello?
    Mr. Costello. Madam Chair, thank you. And I thank you for 
calling this important hearing today. I see that we have a 
distinguished panel of members before us, so I will only make 
brief comments and ask unanimous consent that my full statement 
be entered into the record.
    Madam Chair, thank you for calling the hearing today. I 
welcome our witnesses and I am pleased that one of our 
witnesses on the next panel is Les Sterman, from the Regional 
Council of Governments in the St. Louis Metropolitan Area. I 
think you will hear testimony from him that relates to my 
concerns with the program.
    As you know, in 2004, FEMA embarked on a map modernization 
program. It is an important program; it allows us to take 
advantage of revised data to help local officials and citizens 
have the ability to better plan for flood-related disasters, so 
I support the program. However, I have grave concerns with the 
piecemeal approach that FEMA is using and pursuing at this 
time.
    For example, in the St. Louis Metropolitan Area, 
preliminary maps will be available for review this summer for 
the Illinois side of the Mississippi River. But it may be three 
years before the maps are available on the Missouri side of the 
River, even though both sides of the River share the same 
floodplain and the same watershed. Why? Because FEMA, the 
regional office, for instance, covering Illinois is pursuing 
the matter of the mapping process much sooner than the regional 
office that covers the State of Missouri.
    While I support the map modernization program, I oppose 
this piecemeal approach. I believe that the flood modernization 
map for a floodplain or a watershed should be implemented for 
the entire floodplain or watershed at the same time.
    The Corps of Engineers follows watershed boundaries, not 
State boundaries. I offered an amendment to H.R. 3121, the 
Flood Insurance Modernization Act, when it passed the House. 
And let me say that that amendment basically says to FEMA they 
would be required to implement maps for the entire floodplain 
and watershed, as opposed to the piecemeal approach that is 
currently being followed.
    Again, Madam Chair, I thank you for calling this hearing 
today, and I look forward to hearing from our witnesses.
    Ms. Norton. Mr. Higgins.
    Mr. Higgins. Thank you, Chairwoman Norton and Ranking 
Member Graves, for allowing me to speak today.
    The National Flood Insurance Program is, both in its design 
and execution, the worst Federal program that I have 
encountered in my time at the United States House of 
Representatives. The once vibrant neighborhoods in Buffalo and 
Lackawanna, New York, in which flood insurance is mandated are 
effectively economic dead zones because this program provides 
perverse disincentives to home ownership and to home 
improvement which, over decades, have effectively turned whole 
swaths of formerly vibrant urban neighborhoods into virtual 
ghost towns.
    It is my contention that the financial basis of this 
program is unsustainable and unjustifiable. It has a payer-
payee structure in which many communities across America pay 
this mandatory flood tax and see no benefit, with just a few 
communities realizing assistance. In order to demonstrate this 
payer-payee relationship, I am, today, submitting to Acting 
Administrator Maurstad a request for a national county-by-
county breakdown of the amount paid into and out of the program 
in the past 10 years.
    Unfortunately, the map modernization process being 
undertaken by FEMA, which is the subject of this hearing, only 
tinkers at the edges of this program, instead of addressing its 
fundamental flaws. In Buffalo, while some communities received 
relief from the map modernization, FEMA now proposes to include 
the historic old First Ward neighborhood in this economic dead 
zone for the first time, a neighborhood which has stood since 
the Civil War, which has never seen the type of flooding that 
would result in payments from the Flood Insurance Program.
    After I have received the data from FEMA regarding the 
payer-payee relationship, I will forward it to the Committee 
for your review and consideration. And I thank you once again, 
Chairwoman Norton, for allowing me to participate in this 
hearing.
    [Information available, as submitted for the record by 
FEMA, through Subcommittee office.]
    Ms. Norton. Thank you very much, Mr. Higgins.
    Now we will proceed to our Congressional witnesses. I will 
just go from left to right.
    Mr. Hall?

 TESTIMONY OF THE HONORABLE JOHN J. HALL, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF NEW YORK; THE HONORABLE DORIS O. 
    MATSUI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
CALIFORNIA; THE HONORABLE VERNON J. EHLERS, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF MICHIGAN; THE HONORABLE JOHN 
    BOOZMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
ARKANSAS; AND THE HONORABLE CANDICE S. MILLER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Hall. Thank you, Madam Chair, Ranking Member Graves, 
Members of the Committee, for holding this hearing and for 
inviting me to testify about an issue of vital importance to 
towns and cities throughout the Country.
    I would like to begin by noting specifically that I am glad 
the Committee has chosen to title this hearing National 
Floodplain Remapping: The Practical Impact, because if there is 
one point that my testimony would make to the Committee today, 
I hope that it is that this process will have a real and 
significant impact on the daily lives of people in my district 
and elsewhere.
    The results of this process will impact the value of 
people's homes, the cost to maintain them, and the fate of 
homes and businesses unfortunate enough to be affected by 
future floods.
    As we have seen in recent years, extreme weather events are 
occurring with alarming frequency. Too often, these events 
create flooding that leaves homes battered, businesses reeling, 
infrastructure broken, and communities devastated.
    My district in New York's Hudson Valley has been far from 
immune. Floods have had an incredibly destructive impact in the 
Hudson Valley, and in recent years the flooding has become so 
frequent the town supervisors, farmers, and homeowners have 
every reason to look over their shoulders or up at the skies 
every time it drizzles.
    The region has experienced three 50-year floods in this 
decade alone. That rate of activity strains the ability of 
emergency services to respond, communities to recover, and 
local resource managers to prepare.
    The full force of flooding impacts became evident a year 
ago, during last April's nor'easter. The rains only lasted a 
weekend, but the damage is still being repaired. Roads were 
washed out, fields submerged, homes and businesses were 
damaged. After those storms, FEMA made a disaster declaration, 
opening the way for assistance. But it is clear that we need 
more than an ad-hoc approach to prevention, mitigation, and 
recovery.
    Unfortunately, recent history and the forces of climate 
change leave us with too much uncertainty to simply hope that 
these events are anomalies that will soon be rendered only as 
historical quirks or Weather Channel trivia. It is clear that 
our Government must take steps to be prepared for future 
events.
    One of the most challenging consequences will be the 
modernization of the National Flood Insurance Program and the 
update of the National Floodplain Map. As FEMA moves forward 
with this process, it must take a methodical, comprehensive 
approach that will be effective, fair, and avoid undue costs to 
taxpaying homeowners.
    A large part of this process should be the provision of 
avenues for communities, particularly those that will be newly 
included in the floodplains, to voice their concerns or their 
protest with FEMA without undue burden.
    Several communities in Orange County, New York would be 
included in the floodplain map and forced to purchase insurance 
for the first time under the preliminary Flood Insurance Rate 
Map regarding Base Flood Elevations within Orange County, New 
York. The data needed for the appeal of a draft would require 
hydrologic and hydraulic studies that must be paid for by 
individual homeowners or local governments.
    Despite the highly technical and costly nature of these 
studies, FEMA allows only a 90-day comment period. Now, 90 days 
might be a standard window here in Washington, D.C. for Federal 
officials, but for homeowners in my district who are already 
struggling with property taxes and small towns with limited 
expertise, that is a fast turnaround.
    Although FEMA has since informed my office that the review 
process in one of my cities will allow other communities to 
register protests until late May, these procedures are hard to 
navigate and need to be made more accessible to the 
stakeholders who will have to live with the impact of the new 
floodplain map on a day-to-day basis. In either instance, it 
would not be feasible to finance and conduct these studies 
before the current public comment deadline.
    I am not suggesting that towns and cities should be able to 
skirt inclusion in the floodplain if it is truly warranted, but 
if there are local concerns that inclusion is unjustified or 
detrimental, it should be easier for communities to make their 
case to FEMA directly.
    Efforts to update the National Flood Insurance Program are 
right to account for changing circumstances, and the new maps 
should take prospective factors into account. Specifically, the 
human factor of local growth and the environmental factor of 
climate change must be taken into account. Both will directly 
impact flood activity in the my district.
    Orange County, New York is one of the fastest growing areas 
in New York State. We are proud that more people are choosing 
to make the county their home and are working hard to manage 
the development that their presence requires. The region is 
also blessed with abundant streams and rivers that may exhibit 
changing characteristics as sea levels, precipitation activity, 
and other factors relating to our changing climate develop.
    As FEMA moves forward, it needs to find ways for the new 
flood map to recognize the need for growth and extend 
protection to vulnerable communities in order to prevent the 
blessing of our water resources from becoming a curse.
    I thank the Committee and the Chair for examining this 
issue and look forward to working with my colleagues, FEMA, and 
the Army Corps of Engineers to ensure that FEMA has updated the 
National Floodplain Map as responsible, effective, and in the 
national interest. Thank you, Madam Chair.
    Ms. Norton. Ms. Matsui.
    Ms. Matsui. Thank you, Madam Chair and Ranking Member 
Graves, for convening this hearing. Since coming to Congress, 
flood protection has been one of my top priorities.
    My district sits at the confluence of two great rivers. 
Sacramento is considered to have the highest flood risk of any 
major metropolitan city in the United States. More than 440,000 
people, 110,000 structures, the capital of the State of 
California, and up to $58 billion are at risk.
    Yet, my district has truly been a positive poster child in 
its efforts to bolster our flood control system since our near-
catastrophic flood in 1986. We have investigated our levees, 
planned our projects, assessed ourselves millions of dollars, 
pushed our State to be a full partner, and begun to build 
projects that would get us to a greater than 200 year level of 
protection. In fact, our latest assessment commits over $400 
million of local dollars to this effort. We are fully committed 
to flood protection.
    I am very proud of the flood control work we have 
accomplished. We know we still have a long way to go, but what 
we don't need at this point is to have the rug pulled from 
under us. That leads me to why we are here today: to discuss 
where our national flood control policy is and where it is 
headed.
    Specifically, I would like to discuss what the Corps of 
Engineers has proposed to use as its new standard for levees, 
as written about in the Draft Engineers' Technical Letter first 
published or released in 2007.
    I think we can all agree that it is important to set robust 
standards when it comes to public safety. I am concerned, 
though, with the Corps proposed levee standard. Not because I 
don't want greater public safety for everyone who lives in the 
floodplain, but because we may not be addressing our biggest 
problem when it comes to flooding. This new standard creates a 
goal for us that is so far off the chart it is unobtainable. We 
must maintain the trust of our local communities, communities 
that are investing their hard-earned dollars, their time, and 
their future goals. We cannot put the brass ring out of reach.
    I understand that the historical data of a floodplain is 
not enough. In order to compute a watershed's flood frequency 
analysis to estimate the risk it faces, you must also use 
probabilities. And depending on what probability theory you 
use, a watershed could have greatly different flood threats. So 
if you are proposing a change to methodology being used for 
levee standards nationwide, we must be extremely careful to get 
it right.
    The problem I see is that we are setting the bar for 
communities in the floodplain and leaving it up to them to best 
figure out how to mitigate for that risk. I am not a flood 
engineer, but I understand that the Corps is proposing to use a 
method of analysis often referred to as a Monte Carlo 
simulation. It may just be a name, but any method with a label 
like that needs to be greatly scrutinized.
    I am also concerned that by using this new standard we may, 
in actuality, be holding communities to different standards. 
The Midwest communities that contend with the wide and massive 
Mississippi River have very different watersheds than in the 
West; their levees are set back, their floodplains are much 
larger, they often have days of warning when a flood is coming. 
In Sacramento's watershed, we have a Sierra snow pack that can 
melt quickly and, in some cases, give floodplain residents only 
a couple hours warning of a flood. Our levees are a result of 
the gold rush and are built immediately adjacent to the river. 
And then we have the warm coast that can make our weather 
patterns change rapidly. So I am concerned that a universal 
approach will not recognize these very significant regional 
differences.
    If getting communities the highest level of protection in 
the quickest time possible is our goal, we also need to 
localize some of this policy. Specifically, the 408 permit 
process. By allowing the local core districts to approach 408 
permits so that work can be done quickly to upgrade levees, a 
commitment to public safety will also be demonstrated.
    We need to get Federal flood control policy right because 
communities such as mine are paying a huge price. I know FEMA'S 
goal in remapping is to make communities safe. We can all agree 
that public safety is the number one priority. But unless we 
accurately estimate the threat, our communities will pay huge 
economic consequences without getting additional safety. Also, 
I worry about people on fixed incomes and their ability to meet 
flood insurance requirements. Even if the annual payment could 
be broken up in two installments, it would be much easier. My 
point is we need flexibility and we need to get it right.
    The good news is that we know how to fix our flood 
protection problems and make the city safer, from strengthening 
our levees to the Joint Federal Project at Folsom Dam.
    I don't want all good work we are doing to be wasted. We 
must have obtainable standards, standards that recognize 
regional differences in flood protection and floodplain 
analysis. Public safety needs to take precedence across the 
Country and new standards must allow communities to actually 
achieve measures that will allow them to be safe.
    I want to thank the Subcommittee for allowing me to be here 
and looking into this important issue. I thank you very much.
    Ms. Norton. Thank you very much, Ms. Matsui.
    Mrs. Miller.
    Mrs. Miller. Thank you, Madam Chair and Ranking Member 
Graves and Members of the Subcommittee. I certainly appreciate 
the opportunity to come here and testify on this very important 
hearing, I believe, on FEMA'S flood mapping program, and 
actually for many of the same reasons that other areas of the 
Country are expressing concern. This issue has also impacted my 
constituents in a very negative, I think, and unfair, unjust 
way.
    FEMA, of course, is currently doing what the Congress has 
directed them to do, and that is to update and modernize the 
flood maps across the entire Nation. We all recognize that with 
new technology we can and we should update the maps to reflect 
our very best science and to convert existing outdated maps 
into user-friendly digital format which will account for 
property development and growth over the past several decades, 
as well as changes that we find in the topography. And I want 
to make it clear that I absolutely do support this very 
important work.
    However, property owners in the Great Lakes area are being 
treated very unfairly by these new maps, which have taken 
effect in my district, actually, in the past several years. The 
net impact is that we can show how these property owners all 
throughout the Great Lakes Basin, actually, whose properties 
very rarely flood, nor have the potential to flood, are being 
treated unfairly. In fact, they are being abused by the 
National Flood Insurance Program. My constituents are paying 
very, very high flood insurance premiums, and yet we very 
rarely receive claims.
    Let me just give you an example of the disparity that I am 
trying to address. In regards to FEMA'S proposal for remapping 
in the Great Lakes region, they are basing raising the base 
flood elevation an additional 14 inches, they say, FEMA says, 
to accurately reflect the risk of flooding. This is predicated, 
however, on data from 1988, which was two years after the 
highest lake levels ever recorded in the Great Lakes.
    In Lake St. Clair alone, which is a small lake between Lake 
Huron and Lake Erie, the lake levels have dropped over three 
feet since then and are now five and a half feet below the 
current base flood elevation. In fact, over the past 20 years, 
the lakes' average have dropped 11 times and, most importantly, 
if you really want to look at historic averages, the lake level 
has only changed an average depth of about six inches a year. 
In spite of all of this, FEMA'S new base flood elevation is now 
six and a half feet above the current lake level.
    While FEMA has gone about implementing these new maps, the 
International Joint Commission, also known as the IJC, which is 
an independent binational organization established to help 
prevent and resolve disputes relating to the Great Lakes, has 
undertaken a five year study examining issues that affect water 
levels on the Upper Great Lakes. This is going to be the most 
comprehensive and advanced lake level study ever completed.
    While certainly we can all agree that using sound science 
in very important, in this instance, when hundreds of millions 
of dollars are going to be assessed against property owners, 
the most prudent course of action, I believe, is to wait until 
the IJC has an opportunity to complete this study. In fact, let 
me mention that another Subcommittee of the T&I Committee, the 
Water Resources, is going to be holding a field hearing in 
several weeks in Green Bay to study the low lake levels in the 
Great Lakes.
    However, my constituents currently are paying much higher 
premiums for an insurance plan that they will likely never ever 
file a claim on. And the practical impact of these new maps on 
my constituents has been to simply raise their flood insurance 
premiums, costing them literally millions of dollars, again, at 
a time when the lake levels are at a historical all-time low. 
This means that they are not going to be making claims, but 
they will be subsidizing other parts of the Country, because 
what is happening is that many States and their property 
owners, with little risk of flooding, who have experienced 
little or no flooding, are funding the National Flood Insurance 
Program at very, very high rates.
    Between 1978, the year the National Flood Insurance Program 
began, and 2002, there were 10 States that received more in 
claims than what they paid in policies, in fact, over $1.5 
billion more, and the average premium for policyholders in 
those States was $223. Michigan, on the other hand, paid almost 
$120 million more into the program than it received back in 
claims, and yet the average premium for people in Michigan was 
$257. This is a very common element throughout the Great Lakes 
States: higher premiums and lower claims than the States who, 
year after year, are taking advantage of the floor insurance 
program.
    And I believe that what is going on is that Michigan and 
other States are sort of being forced to subsidize those who 
live in other States that have repeated floods, and, really, if 
this is what we are going to do as a Nation, we should call it 
what it is, I think, because we are always going to step up as 
a Congress and help areas that are having natural disasters. 
Then we should have a national catastrophic fund, as opposed to 
what we have right now, where you have some States subsidizing 
others. In fact, if the situation continues as it is, it is my 
intention to contact our governor and our insurance 
commissioner and suggest that Michigan should opt out of the 
National Flood Insurance Program and actually self-insure.
    And one thing I will say, in Michigan, we actually look 
down at the water; we do not look up at the water. Let me just 
close by giving you one experience of one county in my 
district, St. Clair County. This is a small county. They have 
actually subsidized this program to the tune of $8.5 million. 
So you can interpolate that across the entire State. At the 
same time, this is a county that has about a 15 percent 
unemployment rate at this current time. So here we are with all 
of these higher flood insurance premiums that is happening.
    But I really appreciate the Committee allowing me to 
testify on this. I certainly look forward to continuing to work 
with all of my colleagues to bring both fairness and 
reasonableness, as well, back to the National Flood Insurance 
Program. Thank you very much.
    Ms. Norton. Thank you very much, Mrs. Miller.
    Mr. Boozman.
    Mr. Boozman. Thank you, Ms. Norton, Mr. Graves for your 
leadership and holding this very important hearing on the 
National Flood Plain Remapping process.
    I believe as strongly as anyone that FEMA flood maps should 
be modernized and accurate. However, communities in my district 
have been exposed to a confusing and unclear process that has 
failed to address their questions and concerns in a clear and 
consistent manner. Also, they have been subjected to a 
timetable for compliance that seems both arbitrary and 
unrealistic, given the circumstances.
    These failures are not for a lack of effort or 
communications from the dedicated folks at the relevant Federal 
agencies. Rather, the process is problematic because our 
communities are traveling through uncharted territory as they 
navigate this process. While there are several aspects of this 
process that are challenging for our communities, I will focus 
my brief remarks on just one relevant issue: the assessment of 
flood protection provided by levees and how levees are 
certified for inclusion on the modernized FEMA flood maps.
    Let me provide you one example of such a challenge from my 
congressional district. Crawford County and the City of Van 
Buren own and maintain a 23 mile-long levee on the Arkansas 
River.
    When the map modernization process began for Crawford 
County, the County and the City of Van Buren were told by FEMA 
that one of their options was to work with the Corps of 
Engineers to have their levee certified. As a result, Crawford 
County and the City of Van Buren have been proactive in 
formally enlisting the assistance of the Corps of Engineers. 
However, challenges and barriers have been encountered that 
were not anticipated when FEMA advised the County and the City 
to work with the Corps.
    Specifically, as the Corps has looked for legal 
authorization to perform levee certification work, they have 
encountered several hurdles that will most likely delay 
assistance, and probably prevent assistance. For example, in 
2000, Congress enacted the Thomas Amendment, which permits the 
Corps to provide commercially available engineering services 
only if these are ``not reasonable and quickly available 
through ordinary business channels'' and if the Corps is 
``uniquely equipped to perform such services.''
    As a strong proponent of the private sector, I support the 
Thomas Amendment, but I believe the Corps should take into 
consideration, in this specific instance, whether the private 
sector is willing and able to take on the liability that could 
be involved in levee certification at a cost that levee owners, 
such as my constituent communities, can afford.
    Now, the City of Van Buren and Crawford County are facing 
an April 2009 FEMA-imposed deadline to complete their levee 
certification work, or else the citizens and businesses, 
including the local industrial park, will face mandatory 
increased flood insurance costs. Even if the Corps can find 
legal justification to do the certification work, the 
evaluation would take five to six months. Also, any 
deficiencies with the levee would have to be addressed before 
certification. Deficiencies could result in the need to 
generate significant pay for the levee modification, including 
engineering, design, and construction costs, which nobody is 
disputing; that is something that needs to be done.
    In short, it is highly unlikely that the April 2009 FEMA 
deadline will be achievable, despite the best efforts of my 
communities, who have been very proactive to try and get ahead 
of this thing to work with our Federal agencies in a good faith 
manner. As a result, without a change, much of Van Buren's 
industrial zone is likely to be reclassified as a high-risk 
flood zone and the cost of doing business there will be 
dramatically increased next spring.
    In conclusion, as the Ranking Member on the Subcommittee on 
Water Resources and the Environment, I hope our Subcommittee 
and this Subcommittee can work together with both the Corps of 
Engineers and FEMA to produce a solution that will provide 
reasonable accommodation for levee owners who are making their 
best effort to get their levees certified as quickly as 
possible. As an initial step, I would suggest that we engage in 
dialogue with FEMA to see whether an extension of the deadline 
for provisionally accredited levees, such as those in Crawford 
County, would be possible.
    Again, you know, I have a situation where I encouraged my 
city, my county to get ahead of this, to do the right things. 
They contacted the appropriate agencies, were told to move in a 
certain direction; now, though, have been given a time line 
that is unattainable, and it is ironic because much of the 
delay that is going to be caused in reaching that time line 
will be from the agencies themselves and their inability to 
make a decision and move forward. So it is a problem right now. 
Like I say, most of our communities now are struggling with 
this, as you hear from the testimony. They need guidance, but 
we really do need to look at these very unrealistic timetables. 
Thank you very much.
    Ms. Norton. Thank you, Mr. Boozman.
    Mr. Ehlers?
    Mr. Ehlers. Thank you, Madam Chair and Mr. Graves. I 
appreciate the opportunity to testify. As you know, I have 
spent many, many hours in the seats where you are in now. This 
is my first time here, and I must assure you the view is quite 
different from here. You look very imposing at this point.
    Thank you for the opportunity to testify before the 
Subcommittee today. I have been a strong supporter of the Flood 
Insurance Program ever since it began. I think it is a great 
idea. But we also have to recognize it has to be properly 
administered.
    My hometown of Grand Rapids, Michigan is facing severe 
negative economic impacts as a result of FEMA'S floodplain 
remapping initiative. I appreciate the opportunity to explain 
this to the Subcommittee precisely what is happening here. I 
have a longer written statement that I will submit for the 
record.
    Grand Rapids is a city of 200,000 people, settled along the 
Grand River. It is the second largest city in Michigan and the 
center of a metropolitan area of over 1 million people.
    The current story of flood mapping in Grand Rapids is one 
of bad timing and bureaucratic closed-mindedness, as well as 
disagreements between different Federal and State government 
agencies. The City was first notified about the FEMA Flood 
Plain Remapping initiative in the fall of 2003. This was right 
around the same time that the city had just completed a 17-
year, $12.4 million project to improve the flood walls and 
embankments along the Grand River. In other words, an urban 
area with not a lot of money took it upon themselves to develop 
a major flood wall and embankment project. They raised the 
flood walls to one foot above the 100-foot elevation, which at 
that time was deemed by the Corps of Engineers as adequate, 
cost-effective, and contact-sensitive.
    Two years later, after that major project was finished, 
which really strained the city's resources, in August 2005, 
FEMA issued a procedural memo which required that levees be 
constructed to three feet above the 100-year flood elevation in 
order to be considered during mapping revisions or updates. In 
other words, the mammoth project the city had done, following 
guidelines of various government agencies, both State and 
local, were now two feet below the required level. Apparently, 
the FEMA design standards were in place since 1986, but it was 
more of a guideline than an enforced rule, and Grand Rapids 
City officials were told in July 2006 that their flood walls 
and embankments were not adequate, would not be considered in 
FEMA'S remapping.
    Once the appeals are resolved and a new map is finalized 
and published, it will trigger the flood insurance requirements 
for those properties located in the newly identified 
floodplain. According to a draft report from the local 
engineering firm, the new regulations are estimated to impact 
over 6,000 parcels in the City of Grand Rapids, with a 
potential for a total annual insurance premium of somewhere 
between $6 million and $22 million. This is particularly 
unwelcome news to a city and a State facing troubling economic 
times and high unemployment. Many of the affected properties 
are in low-and moderate-income neighborhoods.
    I strongly encourage this Subcommittee to work with FEMA on 
a more reasonable approach. FEMA should discard its all-or-
nothing policy on levee certification and should take existing 
flood protection into consideration when revising its maps and 
calculating flood risk, particularly when a city, a modern city 
with typical modern city financial problems, has taken it upon 
itself to really improve the protection within the city. I 
understand that FEMA has a job to do in warning and ensuring 
against flood risk.
    However, arbitrarily disregarding existing flood 
protection, ignoring contact-sensitive design, and requiring 
property owners to insure themselves against imaginary flood 
risks that will likely never be realized has economic impacts 
on communities and property owners that are inappropriate and 
unfair. We have heard rough estimates that the new standards 
will likely provide protection for a 500-year floodplain, which 
is certainly longer than the age of the city.
    Finally, I encourage the Subcommittee to ensure that FEMA 
is utilizing the best and most appropriate geologic, 
hydrologic, and climate data, and the flood modeling available. 
It is my understanding that there is some question about the 
accuracy and consistency of the modeling used in mapping Kent 
County and the City of Grand Rapids. The effective 
implementation of a reasonable flood insurance program depends 
on accurate science.
    Let me add one quick note, and that is even if we simply 
raise the current levees by the two feet that are required by 
FEMA, that would not meet the standards of FEMA because there 
are a number of river crossings and bridges that would not meet 
the standard. Reconstructing all the bridges would be a back-
breaking monetary task for the City of Grand Rapids. So I am 
asking that you help us develop a better plan that can meet the 
actual needs of the floodplain and not break the bank for the 
City of Grand Rapids.
    I thank you very much for your listening and I hope we can 
work this out.
    Ms. Norton. Thank you very much, Mr. Ehlers.
    I must say I found the testimony of the members very 
compelling, and you have added to our questions for the next 
panel. I think I ought to reserve my questions mostly for them, 
but I do have a few questions to ask you.
    I noticed that Mr. Hall, Mr. Boozman, and Mrs. Miller, who 
spoke about the study, have raised questions that go to the 
need for more time. I wonder if your communities have asked for 
extensions and whether those extensions have been granted, if 
any of you have had that experience.
    Mrs. Miller. None of my communities, that I am aware of, 
have had any success in getting extensions. The flood maps, as 
they have come out, have been implemented and the premiums have 
gone up substantially and the people are paying these premiums; 
of course, if you have a mortgage. If you don't have a 
mortgage, you don't have to pay the premiums.
    Ms. Norton. Well, the flood maps are out. The extension 
would have to do with your response or your differences with 
the map, and I am trying to get some sense of whether or not 
there is the kind of communication you might expect between the 
Federal agency and the community to work out differences 
between communities and FEMA.
    Mr. Boozman. In our case, Ms. Norton, the community is very 
supportive with going forward with the levee certification 
project. They don't dispute that it needs to be done; I don't 
dispute that at all either. I think Katrina, the events of the 
past have shown us that we need to be doing this work. But the 
reality is, you know, for the agencies to require an April 2009 
deadline, when we all have experiences with these agencies, it 
is difficult for them to make the decisions to allow the 
community to go forward with the project, so they are not 
getting the answers to the question whether or not the Corps 
can provide this or the 2000 law will preclude them. Those 
decisions aren't being made. And then if the Corps does get 
involved, it will take them several months to figure out what 
is going on, and then the construction. So the deadline is 
unrealistic by any standard, and we have not had any success in 
getting the deadline extended.
    Now, part of it is that this truly is uncharted water. I 
mean, people are trying to figure out who can do what, who is 
responsible for what, and I think that is the biggest. The 
agencies have been great to work with and stuff, but we haven't 
had any success in extending the deadline.
    Ms. Norton. That certainly gives us some reasons to 
question the time frame when we speak to the next panel.
    I wondered, Ms. Matsui, what you meant when you said that 
the new standard was unobtainable.
    Ms. Matsui. Madam Chair, we are on the leading edge of some 
new standards being imposed upon us, and the Corps has started 
to implement, apparently, these new standards which were 
apparently in existence using a new probability theory. So, 
therefore, for us, we have always been the good citizen, in 
essence, and being very proactive. We had been certified for 
100-year and we were going for 200-year, and during that 
process we discovered that we had some under-seepage, so, 
therefore, we moved forward to address this. In the meantime, 
with this remapping, we understood now, because of the new 
Corps standards, that we are now in the floodplain. So we are 
moving forward with our own assessment to advance-fund this 
because we need to do this.
    But, quite frankly, the question I bring up is that if the 
Corps goes forward with these new standards that are imposed 
upon us without regional differences, my concern is when are 
going to reach the standard we need? Because it seems like they 
are changing all the time. So we reach 100-year or 200-year, 
then all of a sudden we are not there yet. So that is my 
concern here.
    Mr. Hall. Madam Chair?
    Ms. Norton. Yes, Mr. Hall.
    Mr. Hall. May I respond to your first question, which is, I 
believe, whether we got a response back from FEMA. In our case, 
we did request a 180-day extension of the period and were told, 
in a response letter from David Maurstad, the Assistant 
Administrator for Mitigation, that FEMA is only allowed by 
statute to provide a 90-day appeal period. And they told us, in 
fact, that the length of the appeal period is ``regulated by 
statute and FEMA is unable to extend it.''
    However, they will not issue a county-wide flood insurance 
rate map until all communities within the affected area have 
provided their results and completed their appeal period. So it 
is sort of a de facto extension, but it is haphazard, and I 
believe that the Committee might consider making that an option 
for FEMA to legally extend that to 180 days.
    I should add that in my home county of Dutchess, which I 
didn't mention in my formal statement, we have also had 
flooding of both the 10-mile river, which the Corps of 
Engineers is currently engaged in a feasibility study on 
Wappingers Creek, which has had catastrophic flooding that took 
out two-plus megawatt--funny that a hydroelectric power plant 
would be taken out by too much water, but there was so much 
water coming down the Wappingers that it went over the top of 
the hydroelectric plant building, and they had to shut down the 
generators because they were full of water and silt. And then 
in Orange County we had the Wallkill River, the Minnesink 
River, and the Delaware River all flooding at the same time, 
and right now the Corps is looking at studies in that area, 
both at my request and at Congressman Hinchey's request.
    Things are changing very rapidly because not only of 
increased storm frequency and increased storm strength, which 
fit the models of climate change, but also because of 
development, which means more impermeable surfaces like parking 
lots and roofs and driveways and roads, where there used to be 
natural plains, wetlands, and forests which could retain water 
and hold it, instead of releasing it immediately into storm 
drains and into the storms. And, as a result, what used to be a 
normal rain event now seems to produce a flood in our area much 
more quickly.
    So I thank you again for the work that you do and I 
encourage you to, if you can, give FEMA the option of going to 
a longer appeal period for communities like those that we all 
represent who have to deal with varying factors and with the 
costs that is borne by the property taxpayer and by homeowners. 
Thank you very much, Madam Chair.
    Ms. Norton. Thank you, Mr. Hall. The Subcommittee will look 
at this 90-day period. It is a pre-Katrina, obviously, 
statutory mandate. There are new areas in the floodplain and 
lots of complaints, so we certainly will take a look at that.
    I want to quickly move along, but I do want to ask Mrs. 
Miller, who has raised a very interesting notion of self-
insurance. Do you believe that would be less expensive if 
Michigan or your county did that?
    Mrs. Miller. Yes, I absolutely do believe it. I have had 
some preliminary discussions. In fact, I have told our State 
insurance commissioner, I said, you know, if you had AAA or any 
of these regular private insurance companies doing this kind of 
thing, reaping all of this additional money based on the claim 
rate, you would be up in arms. And this is what is happening to 
us as a State, and we can demonstrate it over and over and over 
in so many of these various counties, as I have said and others 
have said. We have literally thousands and thousands of 
property owners that have never had to pay flood insurance. All 
of a sudden, with the new maps, they are now in the floodplain 
and they are paying these very high premiums.
    And this is where I say, as a Nation, a compassionate 
Nation, which I believe we are, when we see what happened with 
Hurricane Katrina or Rita, or the various hurricanes that 
happened in Florida, or we see what happens in Mr. Graves' 
State, we see what happens along the Mississippi, as a Nation, 
we are never going to say we are not going to help our fellow 
Americans. And that is why I say I think we should have a 
national catastrophic fund or something so we are able to move 
very quickly, rather than what we feel we are literally funding 
other States.
    Ms. Norton. Well, then somebody would have to fund the 
national catastrophic fund, and your taxpayers and mine would 
end up putting money in that too.
    Mrs. Miller. At least it would be spread out evenly, rather 
than States like Michigan, who are paying very high premiums 
and not getting the claims back.
    Ms. Norton. Well, I am not sure it would be spread out 
evenly.
    Mrs. Miller. But, yes, I do intend to pursue this with an 
idea towards self-insuring.
    Ms. Norton. Well, I think FEMA has to take that into 
account, that people may be driven to other forms--of course, 
there are penalties for that, because one qualifies for 
disaster assistance, there is a lot of quid pro quo in here. 
But we do need to look at the basis here. This is an insurance 
program, people. Insurance programs usually mean that some 
people put in--everybody puts in, some get out most. That is 
the whole nature of insurance, whether it is health insurance 
or flood insurance. Whether or not that fits this post-Katrina 
period is very much worthy of real examination. I promise you, 
Mrs. Miller, we will look at it, because if a lot of 
communities decided to self-insure, then where would----
    Mrs. Miller. Where would it go, that is exactly right. And 
it does sound like a rather Draconian idea, I understand that, 
which I think speaks to how frustrated we all are with looking 
at the numbers on this type of thing.
    Ms. Norton. I very much appreciate all of this testimony, 
and I assure you we will take every bit of it into account not 
only in our questions to the next panel, but in statutory 
changes and other changes we may request. Thank you very much 
for coming, especially for coming early.
    Could I ask the next panel to come? Steven Stockton, Deputy 
Director of Civil Works, United States Army Corps of Engineers; 
David Maurstad, Assistant Administrator, Mitigation 
Directorate, FEMA. Could I ask you to stand and be sworn?
    Raise your right hand. Do you swear that the testimony you 
will give will be the whole truth and nothing but the truth, so 
help you, God?
    [Witnesses answer in the affirmative.]
    Ms. Norton. We are going to proceed rapidly. I think we 
should begin with FEMA. So I will ask Mr. Maurstad to start, 
followed by Mr. Stockton.

     TESTIMONY OF DAVID MAURSTAD, ASSISTANT ADMINISTRATOR, 
 MITIGATION DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT AGENCY; 
  AND STEVEN STOCKTON, DEPUTY DIRECTOR OF CIVIL WORKS, UNITED 
                STATES ARMY CORPS OF ENGINEERS;

    Mr. Maurstad. Good morning, Chairwoman Norton, Ranking 
Member Graves, and Members of the Subcommittee. I am David 
Maurstad, Assistant Administrator for Mitigation and Federal 
Insurance Administrator for FEMA. Thank you for allowing me to 
update you on three items: FEMA'S progress in meeting 
Congressional intent that the Nation's flood map inventory be 
updated and modernized; the importance of accurately depicting 
levees on community flood maps; and to discuss the status of 
flood maps right here in our Nation's capital.
    A collaborative effort among FEMA and its partners, the 
Flood Map Modernization Initiative uses state of the art 
technology to replace paper FIRM panels with modern digital 
maps. For the majority of flooding sources, the floodplain 
boundary lines are updated and in some areas the flood 
elevations are revised. Recognize, though, that the flood maps 
only depict the one percent annual chance flood, a flood with a 
1 in 100 chance of occurring in any given years. It is a widely 
accepted, though minimum, standard.
    For FEMA, the modernized maps allow us to establish and 
maintain a fair and accurate insurance rating mechanism for the 
National Flood Insurance Program. For the over 20,000 
communities participating in the NFIP, they are much more. The 
digital data and maps serve as a vital foundation for local 
flood hazard awareness, land-use planning, floodplain 
management, evacuation planning, and reducing vulnerability 
from future flood events. FIRMs are used more than 30 million 
times a year by builders, lenders, realtors, insurance agents, 
community planners, local government officials, homeowners, and 
others.
    Map Mod's objective--to map 65 percent of the Nation's land 
area, where 92 percent of the population lives--is within 
reach. FEMA has over 1400 county-wide mapping projects underway 
currently in every region of the Nation. In fact, at the close 
of fiscal year 2007, we had produced modernized maps for over 
60 percent of the Nation's population.
    Accurately depicting flood hazards near levees is critical. 
FEMA is encountering levees which communities know do not 
provide the flood protection once thought, like here in 
Washington, D.C. In other areas, we are finding that the level 
of protection provided has not been established or is not 
known. In cases where we know a levee does not provide 
protection against the one percent annual chance flood, we are 
compelled to ensure that the public is aware of the threat and 
arm them with the facts that will allow them to reduce their 
risk. And even in cases where levees meet FEMA'S standard, we 
must let them know that a chance exists that a greater flood 
could still overtop the levee, which is why we show areas 
protected by levees on our maps.
    While flood insurance is not required for these areas, FEMA 
recommends that property owners consider insurance at a reduced 
rate. As we know, we can't be too careful when it comes to 
ensuring people are aware and take steps to reduce their risks. 
In the last two weeks, in Missouri and Arkansas, levees have 
been breached, flooding hundreds of homes and businesses.
    Let me conclude by providing a brief update on the status 
of the Washington, D.C. Flood Insurance Rate Map. In March of 
2007, due to new information provided by the U.S. Army Corps of 
Engineers that outlined significant levee deficiencies in the 
D.C.-Potomac Park system, FEMA notified the District of 
Columbia by letter that it issued revised preliminary flood 
maps depicting the levee system as not providing adequate flood 
protection.
    On March 25 of this year, FEMA articulated its continued 
commitment to inform citizens, businesses, and institutions 
about the flood hazard, while expressing FEMA'S optimism in 
working together with the District in outlining a collaborative 
solution for this unique situation. At this point, there is 
agreement that the D.C.-Potomac Park levee does not meet 
current NFIP levee requirements. Nonetheless, we have agreed to 
meet with city officials over the next 30 days to discuss how 
identified deficiencies might be remedied.
    FEMA will continue working with the Corps and our other 
Federal, State, and local government partners to communicate 
the true and current flood hazard for Americans in their homes 
and their places of education, work, worship, and gathering. We 
have both a legal and moral responsibility to depict the risk 
accurately, and we are committed to upholding our 
responsibilities. We understand that our work is not always 
popular, but if we choose to look the other way when it comes 
to flood hazards, the tools that people need to make informed 
decisions will not be available, putting many families and 
businesses at risk. FEMA is taking a monumental first step in 
reducing the Nation's flood risk. We are providing the data 
needed to make sound decisions, but data isn't enough. As a 
Nation, we also need a collective will to ensure the right 
decisions are made.
    Madam Chair, on a side note, I want to observe that the 
Pre-Disaster Mitigation Grant Program is up for reauthorization 
this year, and I look forward to working with the Subcommittee 
to reauthorize this very valuable mitigation program.
    Thank you, and I look forward to responding to any 
questions or comments.
    Ms. Norton. Thank you very much, Mr. Maurstad.
    Mr. Stockton of the Corps of Engineers.
    Mr. Stockton. Thank you, Chairwoman Norton and Ranking 
Member Graves and distinguished Members of the Subcommittee. I 
am Steve Stockton, Deputy Director of Civil Works of the U.S. 
Army Corps of Engineers. With your permission, I would like to 
make a short statement and submit a complete written statement 
for the record.
    The Corps of Engineers has served our Nation since its 
birth. We have partnered with local and State governments since 
1917 on public safety projects to reduce the damaging and 
sometimes catastrophic effects of flooding. These projects, 
primarily designed and built by the Federal Government, are 
then transferred to the non-Federal sponsor for ongoing 
maintenance and operation. The Corps of Engineers shares with 
the Federal Emergency Management Agency the expertise and 
mandate to address the Nation's vulnerabilities to flooding. 
However, responsibility for managing the Nation's flood risks 
is also shared among Federal, State, and local governments, 
private citizens, and enterprises such as banks, insurance 
companies, and developers.
    The Corps and FEMA have programs to assist States and 
communities to promote sound flood risk management. However, a 
critical element of successful flood risk management is land 
use. Authority to determine how land is used within floodplains 
and to enforce flood-wise requirements is the responsibility 
primarily of State and local government.
    FEMA has embarked on a Map Modernization Program to update 
and improve the Nation's flood insurance rate maps. In some 
instances, the Corps is being asked to conduct or support levee 
certifications for these maps. Certification is a technical 
finding for the National Flood Insurance Program that there is 
reasonable certainty that a levee will contain a flood within a 
one percent annual chance of occurring. This finding is only 
for flood insurance purposes and should not be interpreted that 
the public living behind the levee is safe from all flooding.
    While the Corps does not have authority that specifically 
addresses levee certification for National Flood Insurance 
Program purposes, it has authorities to perform certifications, 
when requested, on levees that the Corps operates and 
maintains; levees that are part of an ongoing project or study; 
levees designed and built by the Corps but operated by a local, 
non-Federal sponsor; levees in the Corps Rehabilitation and 
Inspection Program; and levees constructed by other Federal 
agencies. Except for levees owned and operated by the Corps, 
funding is the responsibility of the entity desiring 
certification.
    Finally, the Corps is pursing effective combinations of 
tools to ensure a safe and informed public. Our intent is to 
educate citizens about their risks so that they can become 
responsible for their safety by knowing what actions to take to 
lower those risks.
    Madam Chairwoman, thank you for the opportunity to testify 
today on the Corps roles and responsibilities in FEMA'S 
remapping program and our broader mission of assisting in the 
reduction of flood risk for the Nation. I will be pleased to 
answer any questions you may have.
    Ms. Norton. Thank you both for that testimony. Could I ask 
how we got to the one percent risk, the 100-year threshold? Was 
that the threshold before in prior mapping?
    Mr. Maurstad. Yes, Madam Chair. Actually, the one percent 
standard, I believe, has been in place since the early 1970s, 
very near to the inception of the program that started in 1968, 
and it was at that time and has since been reviewed and 
discussed at quite some length as to what the minimum Federal 
standard ought to be. So it goes back literally to the start of 
the program, has been looked at at Congress's request a couple 
of different times. Most recently, the Association of 
Floodplain Managers Foundation held a symposium on whether or 
not the one percent annual chance was still relevant and 
received comments from experts in the field across all 
disciplines. That was accomplished about two years ago. They 
produced a lengthy document summarizing their findings, and you 
have a panelist in your next panel from ASFPM that can better 
articulate this. I believe the finding of that summary was that 
it was still the most appropriate standard, although it may be 
time to look at it again.
    Ms. Norton. Do you think that there should be a universal 
standard, that you should have the same standard throughout the 
Nation, the same one percent standard throughout the Nation? 
You heard Members perhaps speak about communities that have 
never seen a flood. You heard testimony about how--perhaps 
because of climate change, who knows--there has been some 
lowering of the water level. And, yet, throughout the Country 
you have the same standard. How do you justify that?
    Mr. Maurstad. I do believe there does need to be a 
standard, and it needs to be uniform across the Country because 
the standard is that in a particular area of the Country there 
is a one percent chance every year that a flood could happen 
there. There certainly are going to be areas in the short 
period, just the 40 years----
    Ms. Norton. Yes, a flood, but a flood of the kind that 
requires the kinds of changes that communities are now being 
required to make? Sure, there will be a flood.
    Mr. Maurstad. Ma'am, I do believe that there does need to 
be a minimum Federal standard, and I think that is part of the 
difficulty as we communicate with communities and the public, 
to get them to understand that the Federal standard is a 
minimum standard. We have events every year that are less than 
our minimum standard that cause significant damage. It is not a 
either-or circumstance. People that are right outside the 
special flood hazard area, the highest risk area of our 
Country, have one-third of the losses in the national flood 
program every year. So you can see that the minimum standard is 
just that.
    We have a program in the National Flood Insurance Program, 
the Community Rating System, where we encourage communities to 
take actions beyond the minimum Federal standards. As of May 
1st, there will be 1089 communities that choose voluntarily to 
do so. They receive discounts on their flood insurance premium 
for accepting that additional responsibility, which affects 
about two-thirds of our policyholders. So I think we get people 
to understand that this is a minimum standard, there are going 
to be events every year that exceed this minimum standard, and 
we need to prepare for those also.
    Ms. Norton. There have been complaints, for example, that 
communities make changes. There were complaints about a $17 
million change invested in levees; now they don't meet the 
standards, they can't be grandfathered in any way. How would 
you deal with a community that just finished work of that kind?
    Mr. Maurstad. The National Flood Insurance Program is a 
program that depends upon its partnerships. The over 20,000 
communities that participate in the program do so voluntarily 
because of the benefits that they believe they receive from 
joining the Program: the floodplain management requirements 
that they adopt at the local level in their ordinances, the 
availability of insurance, making their communities stronger 
and safer. It is those partnerships that really make the 
Program successful. Whenever we are doing a remapping, as we 
have been doing very vigorously as a result of the Map Mod 
initiative that was started in 2004, we reach out through our 
regional offices with the communities and work with them as we 
go through the mapping process.
    Ms. Norton. I am asking a very specific question. I have 
given you a hypothetical. I would like an answer to my 
hypothetical.
    Mr. Maurstad. Okay.
    Ms. Norton. Somebody just finishes putting in $17 million 
worth of work.
    Mr. Maurstad. The regulation----
    Ms. Norton. Can that be taken into consideration or not?
    Mr. Maurstad. Very specific answer to your question. The 
regulation since 1986 has required three foot of freeboard for 
levees. Since 1986, not one foot, three foot.
    Ms. Norton. Part of what you are meeting when people 
complain to you are statutory requirements. Why haven't you 
asked for more flexibility if more flexibility is needed? Is 90 
days sufficient? Do you need changes in the statute? Are there 
other kinds of flexibility that Congress could give you so that 
you could work in better partnership with local communities?
    Mr. Maurstad. We are always willing to work with the 
Subcommittee on looking at potential----
    Ms. Norton. Well, I am asking you specifically. You have 
heard the time frame discussion.
    Mr. Maurstad. We have got over 1400, as the map over here 
depicts, 1400 ongoing flood studies. In most cases, the current 
statutory requirements and the process that we use go along 
without a hitch. We certainly have circumstances where there 
are unique situations with communities, and we do our best in 
working with the communities to work with them----
    Ms. Norton. If somebody needs more than 90 days, what would 
you do?
    Mr. Maurstad. We can always revise the maps, first of all. 
The 90 days starts the statutorily required comment period. At 
the end of that, there is another six-month appeal and adoption 
process at the community level. And once the community adopts 
the final maps, the maps can always be revised through a Letter 
of Map Condition or a Letter of Map Revision. So the maps can 
be revised when new and better data is available or, in the 
case of levees, where projects start and are completed.
    Ms. Norton. So you don't believe you need any more 
flexibility. You think you have all the flexibility and you do 
not see the time frames, for example, as a particular problem? 
I just need these answers. Because if you need changes, then I 
don't know why you wouldn't ask for them so that you would have 
a better relationship--otherwise, we are going to have people 
coming to the appropriators, we are going to have people coming 
to Congress saying my community just can't do this within that 
time frame or they want this or that ad-hoc change included for 
them.
    We are trying to avoid that, and if we can do so, then we 
will do so. We just went through a period when we had a post-
Katrina, where we gave FEMA more flexibility than it had under 
the statute. I am simply trying to find, as part of our 
oversight, whether or not the statute is 100 percent exactly as 
you would have it with respect to your ability to communicate 
in time, get feedback, get the additional time that communities 
need. You think it is okay?
    Mr. Maurstad. I believe it is.
    Ms. Norton. Okay. You heard one Member, Representative 
Miller, testify about the unfairness she perceives to property 
owners, so much so she said they never get a flood, or so 
seldom, that she is going to recommend, if she is not able to 
do something about it, self-insurance. What is your answer to 
that?
    Mr. Maurstad. A couple of points I would make, and I think 
that you, quite frankly, hit the nail on the head in that we 
are talking--we can't predict when an event is going to happen 
to us. The maps attempt to provide information within a realm 
of probability. Quite frankly, I think that the communities in 
any State already can self-insure; they can already opt out.
    Ms. Norton. Of course they can.
    Mr. Maurstad. Sure.
    Ms. Norton. What is the effect of self-insuring, one, on 
the program and, two, on the eligibility for disaster 
assistance, et cetera?
    Mr. Maurstad. Well, exactly, they would not be eligible for 
disaster assistance and the citizens in those communities would 
not be eligible for flood insurance through the program. There 
are consequences, of course.
    Ms. Norton. And you regard the program as quite adequately 
funded now through this insurance mechanism, I take it?
    Mr. Maurstad. Well, the program is adequately funded, as 
all Federal Government programs are adequately funded.
    Ms. Norton. Is that the only way in which it is 
adequately--you have never had problems?
    Mr. Maurstad. The program is currently $17.3 billion in 
debt. We had, through Hurricanes Katrina, Rita, and Wilma, paid 
out more in claims in those three events than the program had 
paid out in the first 38 years of its existence. So a 
catastrophic----
    Ms. Norton. So it is because of Katrina that you are in 
debt, or was it----
    Mr. Maurstad. Yes.
    Ms. Norton. It is Katrina that did it?
    Mr. Maurstad. From 1986 until 2004, the program was self-
sufficient from the policyholder premiums, while providing $1.3 
billion of benefit in avoided losses every year.
    Ms. Norton. Has there been any increase in premiums or the 
like?
    Mr. Maurstad. Not specifically because of Katrina. We have 
been increasing the premiums to the program because 75 percent 
of the policies are risk-based, actuarially-based premiums. 
Twenty-five percent of the policies are discounted for those 
people that had properties that were mapped into the special 
flood hazard area, so Congress said provide them discounts. So 
we have had--and because of the fiscal financial need to make 
sure that we have funds for catastrophic years, we have been 
increasing the premiums over the course of the last five years.
    Ms. Norton. Thank you very much. I am going to go to the 
Ranking Member at this point.
    Mr. Graves. Is there any help for small communities--and I 
am particularly thinking about the unincorporated communities--
for certification? Is there any Federal assistance for those 
communities?
    Mr. Maurstad. There is not from FEMA.
    Mr. Stockton. Nor from the Corps, sir.
    Mr. Graves. What are those small communities--some of those 
communities, I imagine, it is going to be pretty tough, or it 
is pretty tough. And I am thinking about those ones that--and 
my district is full of them in floodplains.
    Mr. Maurstad. Well, that is part of the reason why we 
issued the procedure memo that allowed for those communities 
where the chief executive officer will sign that they believe 
that the levee continues to provide the one percent annual 
chance protection, that we provide them two years to provide us 
with the necessary information to be able to accredit that 
levee on their maps, one of the reasons why. So at least they 
had some period of time, as the owners of the levees and those 
that benefit from the levees, to be able to put together the 
resources to provide that necessary documentation.
    Ms. Norton. Mr. Arcuri.
    Mr. Arcuri. Thank you, Madam Chair.
    Gentlemen, thank you very much for being here. I have two 
questions, one very specific to the counties in my 
congressional district and one more general with respect to the 
State of New York. FEMA has informed the New York State 
Department of Environmental Conservation that fiscal year 2008 
flood map modernization funds will be used for Chemung, 
Schenectady, Oneida, and Oswego Counties, although they have 
also informed the DEC that no fiscal year 2008 dollars will be 
used to update detailed map studies only to overlay the old 
detail studies on new topographical layer. Updated maps are 
critically important to ensuring that the development can be 
placed appropriately, as well to ensuring that people who live 
in the real flood-prone areas have adequate insurance.
    Isn't this contrary to the mission stated in the map 
modernization mid-course adjustment, of producing new updated 
maps for communities with greater population, greater flood 
risk, and greater potential flood growth development? Why would 
you merely do an overlay for counties like Oneida and 
Schenectady that have those characteristics which you say 
warrant updated mapping?
    Mr. Maurstad. If you would excuse me to provide a general 
answer to you, and then I will provide a more specific answer 
for the record.
    Mr. Arcuri. That would be great, yes.
    Mr. Maurstad. I believe we are being consistent with the 
mid-course adjustment, but it still boils down to what 
resources that we have available and working through the 
regions and the States, where they identify the highest risk 
areas are, and that is, as funds are available, where new 
engineering studies are done. Now, we, through the President's 
2009 budget, are requesting an additional $248 million for 
ongoing mapping activities with an emphasis on new engineering 
studies in high risk areas, so we are hopeful to be able to get 
to more of those areas that you mentioned.
    Mr. Arcuri. Well, I can understand that, but, as I 
understand it, for instance, sections of the Adirondack 
Mountains in New York State, where population density is very 
low, have obviously been left out of that, and that is 
understandable; the population is low. But in the two counties 
that I referred to, there is flooding and the population 
density is high. Shouldn't they be given a higher priority?
    Mr. Maurstad. Again, without knowing the specifics, I would 
say yes. But I would also say that these decisions have been 
made with the State involved in where the dollars that can be 
allocated for that area need to be spent. So I would have to go 
back, get the specifics, see what the recommendations were from 
the State and how that fit in to our national effort.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T1772.005
    
    [GRAPHIC] [TIFF OMITTED] T1772.006
    
    [GRAPHIC] [TIFF OMITTED] T1772.007
    
    Mr. Arcuri. I would appreciate that. One more question. 
Prior to Hurricane Katrina, New York State had the second 
highest flood losses in the Nation under the National Flood 
Insurance Program. This was not because New York experienced 
floods of overwhelming magnitude but, rather, the sheer 
frequency with which it suffered from declared disasters. I 
look at the map that I have here, the progress of mapping 
activities, and New York has, it seems, a significant number of 
counties which are not funded.
    And especially when you look in the southern part of New 
York State that neighbors Pennsylvania, where all of the 
counties seem to be funded, and yet the neighboring counties 
right across the border are not funded; and that seems to be 
more the rule than the exception in New York. What is it that 
goes into the evaluation in terms of different--I see the same 
thing happens with respect to Northwestern Ohio and Southern 
Michigan and South Carolina and Georgia.
    Mr. Maurstad. Well, as I indicated, we have put forward 
from the beginning of the map modernization the multi-year 
flood hazard identification plan. It has been out, transparent, 
visible; everybody has had it. But in the development of that, 
we used risk, we used stakeholder input from the local and the 
State level, we looked at, in some cases, communities that had 
data to contribute to the process. So we have developed a 
specific sequencing and funding process through the five years 
of map modernization.
    So the risk, of course, is based on flood claims by 
district, which may be different than the losses that you are 
talking about if a lot of the events that you had were not 
insured, because the focus and the direction from Congress has 
been to look at the impacts to the National Flood Insurance 
Fund and the National Flood Insurance Program, which may be 
slightly different from the criteria that you mentioned. But it 
is still risk-based with local and State stakeholder input.
    Mr. Arcuri. So do I have to tell my local communities that 
they need to get engaged, to be more proactive in terms of 
getting the message out of what their needs are?
    Mr. Maurstad. I think that is always good advice. But I 
also think that, as I go around the Country and look at 
disasters, one of the things that always strikes me is the 
number of folks that have been damaged by a flood event that 
did not have flood insurance. Clearly, people that have flood 
insurance after events, whether they are presidentially 
declared disasters or whether they are after a lot of the 
flooding events that never rise to that level, the people that 
have a flood insurance policy are those that recover faster and 
get back on their feet better. So I continue to try to 
encourage people, if they are in the high-risk area, if they 
are in the low-to moderate-risk area, to have a flood insurance 
policy.
    Mr. Arcuri. Forgive me, this is my last question. I don't 
mean to be argumentative, but it just seems odd to me. I don't 
understand the fact that New York has so little of its counties 
that are funded and yet it has such a high incidence of 
flooding.
    Mr. Maurstad. Again, without knowing the specifics, one 
aspect that could allude to that is the areas that were funded 
under the program were more expensive to do, so there were 
fewer studies that could be done, so the geographic area that 
could not be reached. So it could depend upon the types of 
studies that were done in those areas that were funded in New 
York, and I would have to get the specifics on that.
    Mr. Arcuri. If you could furnish me with that, I would 
appreciate that very much.
    Mr. Maurstad. Yes, sir.
    Mr. Arcuri. Thank you.
    No more questions, Madam Chair.
    Ms. Norton. Thank you, Mr. Arcuri.
    Mr. Dent?
    Mr. Dent. Thank you, Madam Chair.
    Thank you for being here today. Just a quick question about 
this map that has been presented and the legend at the bottom 
right. I live in Eastern Pennsylvania, Lehigh Valley, 
Allentown, Bethlehem, Easton area. We are the green area 
affected county. What is the difference between the green and I 
guess that reddish and the funded county areas? What does that 
mean? Affected would be affected county versus the preliminary 
county versus funded county, I guess is really the question.
    Mr. Maurstad. Right. The affected county means that those 
counties have final maps adopted and in place from the map 
modernization initiative.
    Mr. Dent. But they are not funded.
    Mr. Maurstad. No, they are funded. They are completed.
    Mr. Dent. Okay. Okay, that is what that means, is 
completed.
    Mr. Maurstad. Yes.
    Mr. Dent. All right, I just wanted to be clear about that 
point. And then preliminary county means what?
    Mr. Maurstad. Preliminary counties mean that we have gone 
through the probably year to year and a half scoping process, 
development of the new maps, and have provided those maps to 
the local communities in preliminary form that starts the 90-
day process, starts the appeal and adoption process.
    Mr. Dent. Okay. And then funded county means?
    Mr. Maurstad. Funded county means that those counties have 
received funds to start that we have allocated----
    Mr. Dent. To begin the process.
    Mr. Maurstad. To ultimately have a final effective map.
    Mr. Dent. Okay. All right. Now, I want to get to the issue 
of my area of Eastern Pennsylvania. As you know, Pennsylvania 
is a very flood-prone State. We probably have more miles of 
running water than any of the lower 48 States. So we have 
enormous flood issues.
    In my region, we have had three major events in the last 
three and a half, four years; Hurricane Ivan and two other 
major events. We, in my region, have put together a regional 
comprehensive flood mitigation program which has been very 
helpful. In fact, this year, in the omnibus appropriations 
bill, we did get some earmark funding, actually, to deal with 
some of our highest flooding areas, and we are basically 
working through FEMA to fund what we consider to be six of our 
high priorities.
    Are you at FEMA giving greater consideration to communities 
like mine in the Lehigh Valley of Pennsylvania that do have 
regional flood mitigation plans, that they have a lot of 
projects that area ready to go, have been comprehensively done 
by planning commissions, we are well ahead of the game? Do you 
give priority consideration for funding for those types of 
applications or proposals versus some other communities that 
may not be as well advanced in terms of their planning?
    Mr. Maurstad. Well, the Disaster Mitigation Act of 2000 
required all local communities to have local mitigation plans, 
so four years ago we----
    Mr. Dent. Ours aren't just local, they are regional; they 
are multi-jurisdictional.
    Mr. Maurstad. I understand. Many communities do it on a 
multi-jurisdictional basis to meet that requirement. We have 
over 16,000 communities that now have in place the required 
mitigation plans. The Predisaster Mitigation Grant Program is a 
competitive program; it is based on technical engineering and 
feasibility of the projects, very strict grants management 
competitive requirements. Having a plan in place, that gets you 
into the game but doesn't necessarily provide you with 
additional points, so to speak, in the competition. And, of 
course, in the Hazard Mitigation Grant Program there aren't 
requirements other than to have the local plan in place to be 
eligible for Hazard Mitigation Grant Programs.
    Mr. Dent. So based on this legend, then, you really want to 
be a green area, essentially; you want to be affected county, 
right, in terms of your process?
    Mr. Maurstad. Well, this is indicating those counties that 
have effective maps, which is different from having local 
mitigation plans. So this really doesn't depict what you are 
talking about.
    Mr. Dent. Okay. All right, that is why I was a little 
confused with that point. Okay, thank you.
    The other issue I have, too, being, again, from Eastern 
Pennsylvania, we are a partner in the Delaware River Basin 
Commission. That is a multi-State entity: Delaware, 
Pennsylvania, New Jersey, and New York. And one issue that I 
continue to hear--and perhaps this is more a question for FEMA; 
it would be a better question, I guess, to the DRBC, who is not 
here, but the question I hear most regularly is this: my 
residents will tell me that floods are occurring in part in 
Eastern Pennsylvania because of the reservoirs up in New York 
being at too high capacity, and that those reservoirs need to 
be managed differently; that is, not be at 100 percent or over 
100 percent capacity, but some other number less than 100 
percent; I don't know if it is 80 or 90 percent, but some other 
number.
    The feeling is that when those fill up that contributes to 
flooding downstream and it is a source. I realize there are lot 
of experts and hydrologists and others who have to examine this 
issue and have some very different opinions, that we must deal 
with this issue from a science-based criteria or perspective.
    So I would just be curious to hear your thoughts, 
particularly FEMA'S thoughts--or even the Corps, it doesn't 
matter--how you feel we should be talking to our constituents 
about that very sensitive issue? Because they are convinced the 
issue is the reservoirs are at too high capacity and that is 
what is driving flooding on the Delaware.
    Mr. Maurstad. Well, from FEMA'S National Flood Insurance 
Perspective, that is a jurisdictional issue. What we are 
talking about today is mapping the risk. The risk is there, and 
what we have been charged to do is go out and determine what 
that risk is and then communicate it to local governments and 
to the public so they can take necessary actions as a result of 
that. So what you are talking about really falls outside the 
scope of my area of responsibilities.
    Mr. Dent. Corps?
    Mr. Stockton. As this Nation developed, a lot of projects 
were built, dams and reservoirs, some Federal, non-Federal, 
authorized for specific purposes, and we do have authorities to 
go in and re-evaluate basins or systems to adjust them to more 
contemporary needs. So the authorities exist. It would take 
funding to do one of these studies to help re-evaluate exactly 
how the system might be operated for more optimal contemporary 
purposes.
    Mr. Dent. One other thing, too. In my community, too, we 
are looking at developing some interesting flood warning 
systems and actually trying to get some of these funded. I know 
if you have any types of perspectives on these types of 
programs, but it has gotten to that point, where I live, 
particularly along the Delaware, that, with the number of 
events we have been having in recent years--we didn't have any 
major events since 1955, and then over the past three, four 
years we have had three major events. So now there is very 
serious talk of flood warning systems, of course, other 
alternative plans to help elevate houses or remove people from 
areas of high risk. So I would just be curious to hear your 
comments and perspective on these flood warning systems at 
FEMA.
    Mr. Maurstad. Well, I think they have proved to be very 
valuable and they are, I think, in many areas of the Country 
very necessary preparedness activity that needs to be looked at 
so that communities can be prepared for and know how they are 
going to respond when an event is at their doorstep.
    Mr. Dent. Okay, that is my final question. I guess my only 
comment would be I just encourage FEMA to stay engaged with the 
Delaware River Basin Commission as we talk about flood 
mitigation and help them, because obviously anything we can do 
to prevent these floods or mitigate these flood events is 
important to you because you are the ones who are asked to 
respond after the fact.
    So to the extent that you can help shed some light on the 
issue of where these reservoirs should be in terms of capacity 
might be very helpful. And there are a lot of competing 
interests, I understand, on the Delaware. New York State is 
interested in water for the city, we are trying to manage both 
drought and flood at the same time, and I do understand the 
complexities of these types of issues, but FEMA'S input with 
the Delaware River Basin Commission I think would be very 
valuable to helping us better address this difficult situation. 
So thank you and I yield back.
    Ms. Norton. Thank you, Mr. Dent.
    Mrs. Capito.
    Mrs. Capito. Thank you, Madam Chair.
    I want to thank the gentlemen. I represent the State of 
West Virginia. We have, as well, a lot of flooding, but it is 
more of a flash flood type situation into the hollows because 
of our geography. On the map I am curious to know--and maybe 
you covered this in your opening statement, and I apologize if 
I didn't hear it--when a county begins to map in conjunction 
with FEMA, is there a process by which the county can contest 
some of the results? Because this actually happened in one or 
my counties. What is the process for that?
    Mr. Maurstad. I appreciate the question. The answer is yes, 
and I go back to one of the comments that I made. I am not sure 
if you were present at that time where I said that really the 
success of the program depends on its partnerships. So once we 
start this process with our partners, those that participate in 
the National Flood Insurance Program, we sit down and we have 
what is initially called a scoping meeting that starts the 
whole process and kind of lays out how things are going to 
unfold along the way. While the engineering work is done, if 
communities have information to provide, we accept that, we use 
that; if they have topographic information, for example. Along 
the way we continue to let them know what and where we are at 
during the mapping process.
    Of course, when you get closer to the more formal 
processes, when we provide the preliminary maps, there is that 
90-day comment period where communities can provide scientific 
or technical disagreements, we will call them, with the maps 
that have ben provided to them. Then there is even, during the 
six month appeal, an adoption process that they go through. 
Certainly, disagreements can happen during that.
    But then back again in response to the Chairwoman's 
question, at any time that there is better information that 
communities can share with FEMA, we want that information, then 
we can have a process for updating and improving those maps. We 
want the best maps possible for communities.
    Mrs. Capito. Right. And I appreciate the good hard work 
that you do. And I know you are not in the emergency response 
area, but FEMA has done a great job, historically, in our 
State, coming in and setting up very quickly in very difficult 
situations, and I appreciate that.
    Let me ask you another topic that we discussed a lot. It 
was called, at one point, ``three strikes and you're out,'' you 
know, if you filed your flood insurance and collected three 
times. What is the status of that and do you have anything to 
say about that?
    Mr. Maurstad. Well, we do have and are in the midst right 
now of implementing the severe repetitive loss pilot program 
that was authorized in the 2004 NFIP reauthorization. It 
doesn't really have a ``three strikes and you're out'' 
provision, but it does have a process that if a valid 
mitigation offer is made to a particular property owner and 
they turn down that offer, then their insurance premiums can be 
increased 50 percent. So it is the first time that the program 
has really ever had--we usually work cooperatively with 
incentives in the program. This is clearly a disincentive and 
is trying to use the stick approach with those that have been 
severe repetitive loss policyholders.
    Mrs. Capito. In the grand scheme of things, I mean, this is 
just an off-the-wall kind of question, but, percentage-wise, 
would you say are individuals who are repetitive large loss in 
coming to FEMA? I mean, just kind of ball-park. I am curious.
    Mr. Maurstad. I think it is around 8,000 of the 5.5 million 
policyholders fit into the definition that Congress put in the 
Act of severe repetitive loss.
    Mrs. Capito. Thank you.
    Mr. Maurstad. But they cause a large number of policy 
losses every year.
    Mrs. Capito. Right.
    Mr. Maurstad. They are a small number, but they are costly.
    Mrs. Capito. They make their voices heard. Thank you.
    Ms. Norton. Let me ask both of you to respond to the 
criticism of your methodology in the prior panel and from 
complaints from the States. How do you define risk? To what 
extent is probability used? Do you use a historical approach 
largely? How do we know this is scientific?
    Mr. Stockton. Let me take that, Congresswoman. We define 
risk as being the probability of an event occurring times the 
consequences. So if you have a 1 percent chance of accedence, 
that is your probability; and then the consequences have to do 
with type of property or lives that you are protecting behind 
that levee.
    As far as the methodology that we use, both the FEMA method 
and the Corps method, the risk analysis method, they are very, 
very similar when they go through and the information that they 
collect to perform those analyses. The only difference is there 
is uncertainty in all the calculations we do; it is based upon 
statistics, historical record. There is a lot that we don't 
know, but we make the best----
    Ms. Norton. Is there a formula that you use?
    Mr. Stockton. Absolutely. We use quite complex computer 
models to compute this. To determine what the flood profiles 
are for different level events, whether they are 100-year 
events or 500-year events, we can produce that, but it is based 
upon the period of record you have, the type of hydrology you 
have, the hydraulics of the channel, and it varies.
    So the only difference in the two methodologies, really, is 
how you capture all that uncertainty. The FEMA approach just 
basically adds three feet of freeboard to capture that 
uncertainty; our approach that we use determines what the 
probability is, and we look for a 90 percent confidence level 
that that flood level will not be exceeded. In some cases that 
provides for less than three feet of freeboard; in some 
instances that provides for more than three feet of freeboard.
    This approach has been recommended by the National 
Academies of Science. We have adopted this approach. It is not 
new; we have been using it since 1997. We continue to update 
our guidance, though, to make it clear, and more relevant as 
more models become available. But it is not new, and I think 
eventually the Corps and FEMA will have a similar approach.
    Ms. Norton. Just a moment. Corps and FEMA use different 
approaches about the same subject matter?
    Mr. Stockton. There are two alternatives provided for in 
the Code of Federal Regulations, and they are fundamentally the 
same. The only difference is how we capture that uncertainty. 
One is a probabalistic approach, we use the risk analysis; the 
other is a deterministic approach where you just add three feet 
of freeboard to capture that uncertainty.
    Ms. Norton. I am going to have to take your word for it, 
but I do note that in the next panel Larry Larson, of the 
Association of Floodplain Managers, suggests that you ``re-
establish''--that is interesting--re-establish the Federal 
Interagency Floodplain Management Task Force. It makes me a 
little nervous to hear about differences between FEMA and 
Corps. Do you believe it would be good to have this interagency 
task force?
    Mr. Stockton. Yes, ma'am.
    Mr. Maurstad. First of all, we do allow the Corps of 
Engineers method for their projects. We recognize that. We work 
with them in partnership, and I would say we started very 
vigorously enhancing our partnership in August of 2005 with the 
Corps of Engineers and formed an interagency flood risk 
management committee where General Riley and myself and our 
staffs meet quarterly and are working towards making sure that 
we can better serve our customers.
    Ms. Norton. So you say there is already, in effect, an 
Federal Interagency Floodplain Management Task Force, is that 
your testimony?
    Mr. Maurstad. No, that is not. What I was alluding to and 
leading to was the two agencies are now, and have been, working 
with developing a better cooperation so that we can better 
serve our constituents, and I can----
    Ms. Norton. Would you agree with Mr. Stockton that this 
would be a good time to re-establish the Federal Interagency 
Floodplain Management Task Force?
    Mr. Maurstad. We value our partnership with the Association 
of State Floodplain Managers and we look to continue to have 
discussions with them on pursuing this suggestion.
    Ms. Norton. Particularly given the partnership, I would ask 
you to pursue that, if at all possible.
    Let me quickly ask a series of other questions. We have one 
more panel we have to quickly get to. I am going to have to ask 
you about costs that are inevitably associated with flood 
mapping, particularly in the midst of the worst downturn in the 
economy in several years. The point, of course, the 
Subcommittee recognizes, is to prevent floods, and the 
mitigation you do, the mapping you do, the partnerships you do 
all are a part of that process.
    Yet, we heard one Member of the Committee talk about the 
insurance as a flood tax speak of economic dead zones that had 
been created in his community by mapping, about the mapping had 
the effect of killing development in community. We know there 
is wholesale concern that development in some communities are 
going to stop instantly, if it hasn't already stopped because 
of economic conditions.
    Have you thought how to avoid undue costs as a result of 
the flood remapping?
    Mr. Maurstad. Well, I think that we certainly look at the 
impacts. We are going to have economic cycles, certainly. One 
thing that is certain is floods are going to happen every year, 
and they are going to remain our number one natural disaster, 
and floods in those areas would be far worse than what the 
impacts are----
    Ms. Norton. Well, for example, the example I gave you 
before, the people who had just done, raised to the last level, 
and here comes a new level.
    Mr. Maurstad. No, I need to correct that. The level was 
always three feet, since 1986.
    Ms. Norton. They just finished work. Maybe the level isn't 
where it should have been. Is there any grandfathering that 
takes into account work that has just been done?
    Mr. Maurstad. That would be a slippery slope for us to 
recognize work that had been done that did not meet our 
regulatory standards.
    Ms. Norton. There was troubling testimony from Ms. Miller 
of Michigan about the lakes dropping 11 times, she testified, 
not rising, and yet elevations being required through the 
remapping. How would you respond to that criticism?
    Mr. Maurstad. In a very general sense, I don't know the 
specifics, so I can't comment specifically, but lakes rise and 
lakes fall. When I was the regional administrator in Region 8, 
North Dakota was one of the States in the region. They have a 
lake up there called Devils Lake. Thirty years ago, I believe 
that lake was completely dry; now it is at about 48 feet and 
has caused considerable flooding since the early 1990s----
    Ms. Norton. Mr. Maurstad, I would agree with that, except 
the testimony was that it keeps dropping 11 times. I know the 
Chair of the Full Committee is concerned about the effect of 
climate change on the Great Lakes, so much so that they are 
having trouble getting boats in. And I am not suggesting that 
you could all of a sudden see the lake come up again, but where 
the dropping of water levels has been so consistent over so 
many years, you can imagine telling people you have got to 
elevate beyond where you were doesn't make much sense to them. 
Would there be any kind of communication or negotiation that 
would go on in a case like that?
    Mr. Maurstad. Well, there is going to be communication, 
Madam Chair, and I would say, again, FEMA, we rely on the 
engineers, we rely on the Corps of Engineers, we rely on the 
private contract engineers to provide us with accurate data 
that reflects the one percent annual chance flood risk. That 
has to be sound, because ultimately we have to operate under 
the premise that it could be legally challenged. So the answer 
to your question is, yes, we would communicate, we would look 
at situations like this, and if the data was wrong, we would 
change it and correct it.
    Ms. Norton. All right. I think that the Great Lakes may be 
one of those instances where there needs to be perhaps some 
realistic understanding of what has happened over the Great 
Lakes over now a number of years consistently. The Full 
Committee Chairman, I think, will have to have his own meeting 
with you to discuss that matter because he is the expert there.
    How much noncompliance, for lack of a better word, do you 
find with the remapping program? Do people generally get it 
done is what I am asking.
    Mr. Maurstad. Yes.
    Ms. Norton. How about this year, in terms of the protests 
this year?
    Mr. Maurstad. Well, there is no question that, as we have 
gotten into map modernization, one of the benefits, quite 
frankly, of map modernization and finally updating the maps 
after many years of neglect for funding reasons is because of 
all the discussion and communication that is going on 
throughout the Country on what their flood risk is. It is more 
sensitive in those areas where there are levees that are no 
longer providing the protection the people once believed they 
had.
    So in those areas, yes, we are working through a number of 
challenging circumstances. But overall we are meeting our 
metrics. When Congress designed Map Mod, it said we will 
provide $200 million a year for five years, but it is going to 
be performance-based; you are going to have metrics and we are 
going to expect you to meet those metrics, and we are on track 
to do that. We are very proud of that, in fact.
    Ms. Norton. Well, I don't envy the task you have and the 
protests you receive. Many of them are inevitable. It is not 
the kind of understanding of the program, the quid pro quos, 
that are involved that there should be, and I know you are 
making every effort at communication. I must say that FEMA was 
not quick to come forward after Katrina to ask Congress for 
changes to accommodate that special circumstance. I don't 
suggest that this is that special circumstance, but I am 
suggesting that essentially where the complaints came from were 
the areas of the Country.
    And the post-Katrina act is not the result of the agency 
coming forward and saying we are interpreting this perhaps 
conservatively. If you want it interpreted differently, then 
perhaps there need to be changes in the statute such as X, Y, 
Z. Instead, you had to have Mississippi and Louisiana and 
others coming here long after the fact, and they complained 
bitterly, bitterly, of FEMA'S procedures, about how it was 
keeping development from occurring. They did it by a true 
indictment of FEMA.
    In light of that experience, I am going to ask you to look 
closely at your statute and at your flexibility and at your 
procedures to make sure that you have the necessary 
flexibility, because I want to assure you this Subcommittee is 
prepared to quickly give you added flexibility, if necessary.
    I very much appreciate this work is a huge challenge and, 
based on the work you have done, I have every reason to believe 
you will meet that challenge. Thank you for your testimony.
    I am going to ask the next two witnesses to come forward. 
We are trying to complete this hearing in about another half 
hour. These two witnesses are equally important to this 
Subcommittee: Les Sterman, the Executive Director of East-West 
Gateway Coordinating Council, St. Louis, Missouri; and Larry 
Larson, the Executive Director of the National Association of 
State Floodplain Managers.
    I am going to ask Mr. Larson to go first.
    Could I ask you to stand and be sworn? Do you swear that 
the testimony that you are about to give is truthful, so help 
you, God?
    [Witnesses answer in the affirmative.]
    Ms. Norton. Please begin, Mr. Larson.

  TESTIMONY OF LARRY A. LARSON, EXECUTIVE DIRECTOR, NATIONAL 
  ASSOCIATION OF STATE FLOOD PLAIN MANAGERS; AND LES STERMAN, 
EXECUTIVE DIRECTOR, EAST-WEST GATEWAY COORDINATING COUNCIL, ST. 
                        LOUIS, MISSOURI

    Mr. Larson. Thank you, Chairwoman Norton and the Members of 
the Committee. I represent the Association of State Floodplain 
Managers. We have about 11,000 members nationally, the vast 
majority of them working at the local level.
    The issue of mapping of flood risk, especially that related 
to levees, is critically important to this Nation. We have a 
number of unsafe levees in this Nation and a number of high 
risk areas that we need to identify. I am going to talk about 
just a few areas briefly: the need to accurately map flood risk 
and hazards; the issue that levees and mapping and managing 
flood risk is a shared responsibility of all levels of 
government; and I will talk a bit about the level of protection 
issue, the one percent issue that you have raised a number of 
times.
    FEMA, as they indicated, map flood risks for about 20,000 
communities, and the FEMA program uses, as Mr. Maurstad 
indicated, the one percent standard to identify that hazard 
risk area. It is important for people to recognize that that 
one percent standard, or 100-year floodplain, is not a public 
safety standard. It is not a standard that says you will be 
safe if you use this standard; it says this is the standard 
that is used by the National Flood Insurance Program to run an 
insurance program that balances those issues that come into 
play in the Flood Insurance Program.
    Is that a level of public safety standard? No, it is not. 
Is it a standard that should be used for structural flood 
protection measures, especially in highly urbanized areas with 
highly critical facilities such as hospitals and police and 
fire stations and the rest? As we saw in New Orleans, no, it is 
not adequate. So we need to think about a variable level of 
standard. But right now FEMA uses a one percent standard across 
the Nation for mapping all flood hazard areas.
    I want to also point out that when a new map is issued, the 
end result is not always putting people in the floodplain, in 
that mapped floodplain; sometimes people come in, sometimes 
people go out. Our experience shows that, typically, when new 
maps are issued, there is pretty much a balance of those that 
come in and go out because you now have a more accurate 
depiction of the floodplain. So you always have what some 
people consider winners and losers. We don't consider the need 
to purchase flood insurance as a loser; it is really an 
opportunity. And, quite frankly, in most cases it is a low cost 
opportunity.
    Showing the flood hazard on the map will not make the 
hazard go away if we don't show it on the map, so we need to 
make sure that people understand that it is important to show 
it on the map. If they want to be able for citizens and 
communities to take action, they need to know what the risk is.
    Levees and mapping or managing flood hazards are a shared 
responsibility; Federal, State, and local. Typically, it is the 
local community that asks for a levee. The Federal Government 
may have built it for them, but it was their mitigation option 
that they chose. With that, they accepted the responsibility, 
in most cases, to operate and maintain that levee. If they did 
not do that accurately and adequately, they may now find that 
the Corps of Engineers comes in and says your levee is not 
adequate and can't be certified. If you had been maintaining it 
over the years, it probably would be. Those are all things that 
need to be considered.
    Finding Federal funds to fix levees these days is very 
problematic, as you know, with Federal budgets, so coming up 
with other options to repair levees, to rehabilitate levees, to 
look at options for levees--as they are doing in the case of 
Sacramento, perhaps doing setback levees behind the current 
levee; building new levees, giving the river some more room--
those are all options that need to be considered. There are 
programs that provide technical assistance for communities when 
the mapping process occurs and levees are decertified. The 
Flood Plain Management Services Program of the Corps of 
Engineers is one program to assist those communities that 
should be pursued actively.
    We find that there are private sector investment firms 
interested in funding infrastructure these days. It is a much 
safer investment than the stock market at the moment, and 
perhaps a little better return than CDs. So there is a keen 
interest in hundreds of millions of dollars being available to 
help communities in infrastructure improvements, and levees 
seems to be one that now is open for that kind of discussion.
    I will again--I know you asked about the Floodplain 
Management Task Force, the re-issuance and upgrading of the 
Executive Order to guide Federal investments and work in 
floodplains. Those are all things we support.
    With that, I would be glad to answer any questions any of 
you might have.
    Ms. Norton. Thank you very much, Mr. Larson.
    Mr. Sterman?
    Mr. Sterman. Madam Chair, Ranking Member Graves, and 
Members of the Committee, my name is Les Sterman. I am 
Executive Director of the East-West Gateway Council of 
Governments, which is a partnership of local governments in the 
St. Louis, Missouri-Illinois metropolitan region.
    The St. Louis region is at the confluence of the 
Mississippi and Missouri Rivers. A large portion of our 
region's land area is protected by levees and other flood 
control facilities, some of which have been in place since the 
1920s. Entire communities owe their existence and prosperity to 
these great rivers and the protection from flooding that we 
have carefully built over the last 80 years or so. About half a 
million people live in the Illinois portion of our region, and 
we now know that about 160,000 of them are in imminent economic 
and physical peril.
    Last August 15th, Congressman Costello called a meeting and 
the Corps of Engineers revealed for the first time that they 
could not certify that what were formally 500-year levees along 
the Mississippi River in Illinois could withstand a 100-year 
flood event. This would mean that the entire area known as the 
American Bottom would be remapped as a special flood hazard 
area.
    Like many older industrial cities, St. Louis has struggled 
to regain its economic footing in recent years. In Illinois we 
are experiencing an economic rebirth. Long-awaited, but now 
imminent expansion of industries like U.S. Steel and Conoco-
Phillips, expansions worth literally billions of dollars in 
actual construction, is now on hold. New development has simply 
stopped dead in the American Bottom.
    Perhaps most troubling, the American Bottom is home to some 
of the poorest and most physically and economically vulnerable 
citizens in our region. For most of them, flood insurance is 
not a realistic option at any price, and without flood 
insurance they will be unable to get a mortgage, unable to buy 
or sell a home, and unable to recover from a catastrophic loss 
from a flood.
    Let me assure you that we take these actions by FEMA and 
the Corps very, very seriously. Since August 15th we have 
mobilized our local governments, who are very quickly taking 
unprecedented, cooperative steps to rebuild our flood control 
systems along the Mississippi River. Legislation will be 
considered by the Illinois General Assembly next week to impose 
a sales tax in three Illinois counties to raise as much as $180 
million for these repairs. Our goal is to rebuild our flood 
control systems in five years or less, an enormously 
challenging job, but one that simply must be done.
    At the same time as we are pulling together to protect our 
citizens and our local economy, we are troubled by a number of 
serious concerns about how this situation has unfolded and the 
future participation of the Federal Government in helping us 
rebuild. My written testimony provides some detail, but I would 
like to just cover a couple of highlights of those concerns.
    While the remapping process has been underway for some 
time, the revelation of the levee deficiencies was both sudden 
and shocking to local officials in our area. Public officials 
want to do the right things to protect the safety and 
livelihood of their citizens, but to ask them to fix a $180 
million in less than a year, especially one they didn't even 
know about, is not reasonable.
    The manner in which the remapping process is unfolding 
across the Country leads to some irrational and very unfair 
outcomes. Our area, for example, is bisected into two FEMA 
regions, which are proceeding along different schedules in the 
remapping process. The remapping in Missouri is as much as 
three years behind that in Illinois. The citizens of Illinois, 
who will suffer truly Draconian outcomes from this process, 
will look a couple of hundred feet across the Mississippi River 
at their neighbors in Missouri, who will suffer no such 
outcomes. Congressman Costello sponsored an amendment to the 
National Flood Insurance Reform and Modernization Act, H.R. 
3121, that rectifies this injustice. The bill did pass the 
House and is now pending in the Senate, and we strongly urge 
its passage with the Costello amendment included.
    We know that we have to work together in a responsible way 
to reduce the risks of flooding, without compounding the 
problem by putting people and entire industries in immediate 
economic jeopardy. We don't ever want to create a situation 
where well-intended, but man-made government action is creating 
hardship every bit as threatening as the acts of God that we 
want to protect against.
    I thank you for the opportunity to testify and I would be 
pleased to respond to any questions you may have.
    Ms. Norton. Thank you very much. First, let me ask do you 
perceive significant, either of you, financial dislocation in 
terms of construction or other dislocation that attend the 
remapping? I am concerned, for example, Mr. Sterman, that you 
said it was stunning, the changes that were needed were sudden, 
with Draconian outcomes. Would you elaborate on that, please? 
Why was it sudden? These were not apparent, that these changes 
would be needed? What was unexpected?
    Mr. Sterman. The remapping process was certainly not 
unexpected.
    Ms. Norton. No.
    Mr. Sterman. The local government has been participating in 
that for a number of years. What was unexpected was the 
decertification of--we have 500-year levees along the 
Mississippi River that have historically protected hundreds of 
thousands of people and industries. The Corps announced, on 
August 15th--and this was evidently a surprise to FEMA as 
well--that they could no longer certify those levees to 
withstand a 100-year flood. We were not expecting that.
    Ms. Norton. And those were 500-year levees?
    Mr. Sterman. Yes.
    Ms. Norton. Now, do you think Katrina had to do with that? 
What in the world led to that?
    Mr. Sterman. I don't know that Katrina led to it, per say. 
These were noted as ``design deficiencies'' by the Corps of 
Engineers, so it is the design process. The Corps' design 
process has improved over many years since those levees were 
built. They were evidently maintained adequately, but simply no 
longer met current standards that the Corps is using. There was 
a significant change.
    We withstood the flood of 1993, which was a 300-year event. 
We did that with the help of what is known as flood fighting. 
Folks got out there with sandbags; sand boils came up from 
under seepage; and the levees held fairly successfully. Under 
the current standard that the Corps is using, at FEMA'S 
direction, flood fighting activities like that will no longer 
count in assessing the adequacy of the levee. So the levees 
need to withstand without human intervention that flood. We 
weren't expecting that kind of outcome at that time.
    Ms. Norton. Could I ask you on the fact of the use of 
sandbags, human beings helping to control floods. Do both of 
you consider that that is in keeping with modern flood control, 
that it was time to let that go, or do you think that that 
causes needless expense?
    Mr. Sterman. Well, we think flood fighting is a standard, 
well worn practice in this business. It has been practiced for 
many years. It is sandbagging around sand boils; it is 
reinforcing behind floodgates. Those are things that can be 
planned for. We do have, along the Mississippi, significant 
advanced notice when floods will be occurring, so people and 
the forces are in place ready to do that. But that kind of 
activity no longer counts in certifying a levee.
    Ms. Norton. I am going to ask Mr. Graves if he has any 
questions.
    Let me go on, then.
    You say, Mr. Larson, that the standard, the one percent 
standard, is not a public safety standard, but an insurance 
standard.
    Mr. Larson. Correct.
    Ms. Norton. Is it an appropriate standard?
    Mr. Larson. One thing we looked at in our analysis was that 
probably using a uniform standard across the Nation does not 
make a lot of sense because of what Mr. Stockton talked about: 
risk is variable. If you are protecting a cornfield, it is one 
thing. If you are protecting a highly urbanized area such as 
Mr. Sterman has talked about here, that 500-year level of 
protection makes a lot of sense. It is important, by the way, 
to understand that a 500-year flood is not five times larger 
than a 100-year flood. In the St. Louis area it is about a foot 
of difference, a foot in height of difference.
    Ms. Norton. But, of course, if you are doing new 
construction, that could make a lot of difference.
    Pardon me. Go ahead.
    Mr. Larson. So it is important that we look at those highly 
urbanized areas and say we need to provide greater than one 
percent chance level of protection for low----
    Ms. Norton. You know, it seems so common sense. Why, then, 
is there this universal one percent standard regardless----
    Mr. Larson. Well, prior to the NFIP, the Corps of Engineers 
typically built higher levees, such as there were in East St. 
Louis, typically 500-year standard project flood, those kinds. 
But once the NFIP came in and communities figured out that all 
they really needed was 100-year levee to get out of insurance 
and regulation, levees started to get dumbed down in the 
Nation, and that wasn't a positive step.
    That is one of the problems with having the magic line. If 
we had universal flood insurance requirements, that magic line 
between 100 and nothing wouldn't make any difference. Right now 
it is an all or nothing line, instead of a graded line that 
says your risk is variable and how you deal with that should be 
variable. We don't do that in this Nation, but we need to get 
to that point.
    Ms. Norton. Does flood remapping encourage maintenance of 
levees, dams, et cetera, over the years?
    Mr. Larson. Well, it should encourage it.
    Ms. Norton. But, in fact, did you find that there was great 
noncompliance with maintenance upkeep?
    Mr. Larson. Yes. What happened in Katrina was two things. 
Since then--it is somewhat Katrina, but it is also evolution 
over time. Both the Corps and FEMA realized that they were not 
dealing appropriately with levees. FEMA had not been looking 
carefully at levees when they mapped an area to determine if 
that levee was really adequate. The Corps, in its inspection 
program, had been issuing letters to communities for a number 
of years saying you are in the program, but your operation and 
maintenance is deficient; you should do this, this, and this. 
In some cases they issued those letters for 10 years in a row 
but never kicked the community out of the program. Now they 
have religion, after Katrina, and said we need to make sure 
communities have safe levees, and now I think you are seeing 
some of the results of that.
    Mr. Sterman. The remapping process certainly got our 
attention. I mean, we have been moving since August 15th of 
last year to rebuild these levees. We are not waiting for the 
Federal Government or the Corps of Engineers to come in and do 
the job; that will take too long. We are looking to raise $180 
million locally, take the bull by the horns and get these 
levees repaired. We know we are protecting people's lives; we 
know we are protecting literally billions of dollars in 
economic assets. We have got to get moving.
    Mr. Norton. Well, that, of course, speaks positively to 
what they are doing. I understand that, with all the priorities 
that States have, it is easy enough to say, you know, the 
levees look like they are doing fine for now and I need some 
money for public education.
    I am trying to get a grip, though, on financial 
dislocation. We have heard this hypothetical: there are 
changes, like you can't use the sandbags anymore; or we haven't 
been in the floodplain before. Now, let's say we are doing what 
Mr. Sterman says, we are going to fix it. Meanwhile, it appears 
that if you are doing, for example, new construction, you have 
to build higher than you would have to build if in fact the 
levee were fixed that is now being fixed. So you will hear 
complaints, my goodness, construction is there permanently. 
Once we make this investment, that is a substantial addition to 
the cost of construction.
    Is there any flexibility you could suggest to keep new 
construction--I am concerned about the economic turndown--from 
essentially having to add what could be millions of dollars in 
construction that will be unnecessary because the community is 
doing what Mr. Sterman says, they are moving in there to fix 
the problem? How can we deal with costs that may prove 
unnecessary?
    Mr. Larson. Well, I don't see those costs as unnecessary. 
This all-or-nothing view of levees that says if we have got a 
levee, we have to do absolutely nothing has been part of what 
has led us down this road. So doing something behind a levee is 
not necessarily a bad thing.
    Ms. Norton. But I am not talking about the levee now, I am 
talking about someone who has to now do something about 
construction as the levee is being fixed.
    Mr. Larson. I understand that. You know, we have thousands 
of miles of identified floodplains in this Nation, and there is 
construction occurring in them all the time, and it takes into 
account flooding. Those are areas that aren't protected by 
levees. So if construction isn't stopped there by the 
identification of a floodplain, why would it be stopped behind 
a levee? Are there added costs? Yes, there are added costs, but 
it is a risk area. So I think there is a balance there. I 
understand people see that and sometimes perceive that as a 
``unnecessary cost.'' I don't believe that it is.
    Mr. Sterman. Madam Chair, I think that this is one of the 
most important questions in this whole process, is the economic 
impact. We are finding, in our areas, when people are faced 
with those increased costs of development, they are simply 
choosing to go someplace else to build. In our area there are 
other places to build.
    The economic impact to us, even if we are able to make our 
self-imposed standard of five years to get these levees fixed, 
could be in the billions of dollars just in industry that is 
foregone in our region; and the impact on individuals will be 
substantial as well. And all this, frankly, to most of our 
citizens and businesses seems rather arbitrary; one day 
everything was fine and the next day, with the waving of a pen, 
it is not fine anymore and all of our plans get changed and 
literally billions of dollars of economic impact have to be 
absorbed by our region.
    Ms. Norton. The difference, I think, between you, Mr. 
Larson, and Mr. Sterman, you are a true, Mr. Larson, floodplain 
expert. Mr. Sterman, I think, speaks for how people develop. 
Government doesn't have to do with that and people have----
    Mr. Larson. Government does do with it. In the end, it pays 
disaster costs.
    Ms. Norton. No, no, no. See, forever the floodplain man. 
The way in which development occurs in places like St. Louis 
and, for that matter, the District of Columbia, is developers 
decide among their choices. Anything that adds to the cost has 
to be taken into account. Our Subcommittee, of course, has 
jurisdiction over Federal construction and we see it everyday, 
and we are going to have a hearing on the credit crunch and 
what effect it may have on commercial real estate, which we are 
now beginning to see happen.
    I don't mean to pose this as a reason for stopping 
remapping. I do mean to say that, even without using the R 
word, something pretty bad is happening in this Country at this 
time, and there are people throughout the United States that 
are particularly concerned about whether or not development 
will continue in their community. That means, to be clear, 
construction of various kinds by the private sector; not by 
government, by the private sector.
    But if I may say so, there are people who bid on government 
work who are bidding less today. One of the most fast 
developing cities is the city that I represent, where you now 
sit. New ballpark, building on every blade of grass. But when I 
ask people about it, they tell me the way in which commercial 
development takes place is people have gotten their financing 
long before any recession sets in.
    I went to a reception in advance of the first game and we 
went on the top of the building owned by the Lerners, who are 
the owners of the ballpark, and it has this wonderful view of 
Washington, one of the great views of Washington, and I looked 
down and I said, what is being built there? Because there was a 
hole that hadn't been built up, and it is surrounded by all 
kinds of buildings that are going up. And I was informed, 
Congresswoman, that is a hole in the ground. One of our leading 
construction companies was ordered to stop, it was to be a 
hotel. We love hotels. It is not a government building, the 
company was ordered to stop because the hotel had ``lost,'' had 
lost its financing.
    I don't know if this Subcommittee can do anything about it, 
but I am steadily trying to find out as much as I can about it, 
because to the extent that there is anything we can do about 
it, I think we ought to make recommendations or somehow do what 
we can. Many are absolutely petrified that the Administration 
has become so concerned that it has become activists in the 
marketplace.
    So may I ask you to think about that subject, Mr. Larson, 
because he brings a very important view to this matter, and 
that is remember what the costs will be if you do not proceed? 
And you don't have to think about Katrina to think about that; 
all you have to do is think about what is happening, as I 
speak, in the Midwest. If you want to talk damage, all you have 
to think about is what is the most common hazard in the United 
States of America, and you will come up with the word floods. 
And you are speaking to a Member who represents the District of 
Columbia, who saw floods in one of our communities, to which we 
could only say, what? Floods that come from hurricanes and 
hurricanes you have in communities like this that don't even 
have much in the way of hazards.
    So this Committee has jurisdiction over FEMA. It does not 
mean to mitigate that concern at all. Normally, the concern 
that Mr. Sterman raises would be of concern to us. It is of 
particular concern to us today. We do not believe that this is 
an ordinary kind of downturn of the kind we have seen for the 
last several years. We had one in, what, 2000? This has been an 
extraordinary economy.
    I was with the Speaker in India. We went to London, India, 
and Barcelona. There was talk of--and here we are on a climate 
change trip and, of course, in India talking about the U.S. 
nuclear deal, but everywhere we went there was not only 
concern, but stark evidence that what was happening here, sub-
prime now spreading to other parts of the economy, had 
definitely spread to Europe, was definitely in India, where the 
Indians were looking for other funders now, funders other than 
Europe, other than the United States.
    So I am in a mood to take very seriously what is happening 
to the economy. I understand, we all appreciate that this is a 
cyclical economy. We know it will snap back. We know how strong 
it is. We don't want to be part and parcel of worsening it at 
the same time that the Administration and the Congress is 
trying to relieve the effects on the economy through the 
mechanisms they have. We mean to be in harmony. We do not know 
how to do that.
    So I am not here saying, therefore, fill in the blanks. I 
am saying that with the very important testimony you have 
brought to the table, I am asking you to think about this 
subject in light of the twin risks, the risk of not proceeding 
rapidly--because the one thing we know even less about than the 
economy is what the next hazard will be--and the risk of a 
downturn that we may, ourselves, have aided and abetted by not 
being sufficiently flexible in thinking through this process 
that we are now going through.
    I want to thank each of you for really very important 
testimony that this Subcommittee will take into full account. 
Thank you again for coming.
    The hearing is adjourned.
    [Whereupon, at 11:23 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1772.008
    
    [GRAPHIC] [TIFF OMITTED] T1772.009
    
    [GRAPHIC] [TIFF OMITTED] T1772.010
    
    [GRAPHIC] [TIFF OMITTED] T1772.011
    
    [GRAPHIC] [TIFF OMITTED] T1772.012
    
    [GRAPHIC] [TIFF OMITTED] T1772.013
    
    [GRAPHIC] [TIFF OMITTED] T1772.014
    
    [GRAPHIC] [TIFF OMITTED] T1772.015
    
    [GRAPHIC] [TIFF OMITTED] T1772.016
    
    [GRAPHIC] [TIFF OMITTED] T1772.017
    
    [GRAPHIC] [TIFF OMITTED] T1772.018
    
    [GRAPHIC] [TIFF OMITTED] T1772.019
    
    [GRAPHIC] [TIFF OMITTED] T1772.020
    
    [GRAPHIC] [TIFF OMITTED] T1772.021
    
    [GRAPHIC] [TIFF OMITTED] T1772.022
    
    [GRAPHIC] [TIFF OMITTED] T1772.023
    
    [GRAPHIC] [TIFF OMITTED] T1772.024
    
    [GRAPHIC] [TIFF OMITTED] T1772.025
    
    [GRAPHIC] [TIFF OMITTED] T1772.026
    
    [GRAPHIC] [TIFF OMITTED] T1772.027
    
    [GRAPHIC] [TIFF OMITTED] T1772.028
    
    [GRAPHIC] [TIFF OMITTED] T1772.029
    
    [GRAPHIC] [TIFF OMITTED] T1772.030
    
    [GRAPHIC] [TIFF OMITTED] T1772.031
    
    [GRAPHIC] [TIFF OMITTED] T1772.032
    
    [GRAPHIC] [TIFF OMITTED] T1772.033
    
    [GRAPHIC] [TIFF OMITTED] T1772.034
    
    [GRAPHIC] [TIFF OMITTED] T1772.035
    
    [GRAPHIC] [TIFF OMITTED] T1772.036
    
    [GRAPHIC] [TIFF OMITTED] T1772.037
    
    [GRAPHIC] [TIFF OMITTED] T1772.038
    
    [GRAPHIC] [TIFF OMITTED] T1772.039
    
    [GRAPHIC] [TIFF OMITTED] T1772.040
    
    [GRAPHIC] [TIFF OMITTED] T1772.041
    
    [GRAPHIC] [TIFF OMITTED] T1772.042
    
    [GRAPHIC] [TIFF OMITTED] T1772.043
    
    [GRAPHIC] [TIFF OMITTED] T1772.044
    
                                    

</pre></body></html>
